The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:                                                                    Office of the Inspector General
• Contract and Procurement Irregularities
• Conflicts of Interest
                                             • Abuse of Authority
                                             • Misuse of Government Credit Card             Semiannual Report
                                                                                            to Congress
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement


Ways to Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message


                               Submit:
                               On-Line Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738                                     October 1, 2011–March 31, 2012

NUREG-1415, Vol. 25, No. 1
April 2012
OIG VISION                                                           OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover Photos:

Left: Pilgrim Nuclear Power Station
Photo courtesy of Entergy Nuclear

Top Right: Indian Point Nuclear Generating plant
Photo courtesy of Entergy Nuclear

Middle Right: Brunswick Steam Electric Plant
Photo courtesy of Progress Energy

Bottom Right: Fort Calhoun Station
Photo courtesy of Omaha Public Power District
A Message From
The Inspector General
I am pleased to present this Semiannual Report to Congress on the activities and
accomplishments of the U.S. Nuclear Regulatory Commission (NRC) Office of
the Inspector General (OIG) from October 1, 2011, to March 31, 2012.

Our work reflects the legislative mandate of the Inspector General Act, which is
to identify and prevent fraud, waste, and abuse through the conduct of audits and investigations relating
to NRC programs and operations. The audits and investigations highlighted in this report reflect our
commitment to ensuring integrity and efficiency in NRC’s programs and operations.

During this reporting period, the NRC OIG continued its focus on critical NRC operations to
include the agency use of Confirmatory Action Letters to supplement its enforcement program and
the effectiveness of NRC’s regulatory oversight of decommissioned uranium recovery sites. Working
with the NRC timely to identify program areas warranting improvement will afford the agency the
opportunity to take any necessary corrective action.

During this semiannual reporting period, we issued 11 audit reports. As a result of this work, OIG made
a number of recommendations to improve the effective and efficient operation of NRC’s safety, security,
and corporate management programs. OIG also opened 30 investigations and completed 30 cases.
Nine of the open cases were referred to the Department of Justice, and 17 allegations were referred to
NRC management for action.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations, and our audits, investigations, and other activities highlighted in this report demonstrate
this ongoing commitment. OIG efforts were recently recognized with the granting of two Awards
for Excellence by the Council of the Inspectors General on Integrity and Efficiency. I commend the
recipients of these awards for their noteworthy achievements in carrying out the mission of the Office of
the Inspector General.

My office continuously strives to maintain the highest possible standards of professionalism and quality
in its audits and investigations. I would like to acknowledge our auditors, investigators, and support staff
for their superior work and ongoing commitment to the mission of this office.

Finally, the success of the NRC OIG would not be possible without the collaborative efforts between my
staff and those of the agency to address OIG findings and to implement recommended corrective actions
timely. I wish to thank them for their dedication and support, and I look forward to their continued
cooperation as we work together to ensure the integrity and efficiency of agency operations.




Hubert T. Bell
Inspector General




                                                                          October 1, 2011–March 31, 2012       i
                                                    Turkey Point nuclear power station.   Photo courtesy of Florida Power & Light



ii   NRC Office of the Inspector General Semiannual Report to Congress
Contents
Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
	Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
	Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  vii
Overview of NRC and OIG  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
	     NRC’s Mission .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
	     OIG History, Mission, and Goals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
		         OIG History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
		         OIG Mission and Goals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
OIG Programs and Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
	     Investigative Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
	     OIG General Counsel Regulatory Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
		         Regulatory Review .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
		         Other OIG General Counsel Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
	     Other OIG Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
		         NRC OIG Receives CIGIE Awards for Excellence .  .  .  .  .  .  .  .  .  .  .  .  . 8
		         Special Feature Article: OIG Radiography Training .  .  .  .  .  .  .  .  .  .  .  . 12
Management and Performance Challenges  .  .  .  .  .  .  .  .  .  .  .  13
Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  14
	     Audit Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  14
	     Audits in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  36
	     Investigative Case Summaries  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  33
Summary of OIG Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  43
	     Investigative Statistics .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
	     Audit Listings  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
	     Audit Resolution Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  47
Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  50
Reporting Requirements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52


                                                                                                       October 1, 2011–March 31, 2012   iii
                                                        Oyster Creek nuclear power station.   Photo courtesy of Exelon Nuclear



iv   NRC Office of the Inspector General Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.

AUDITS
•	 The Reports Consolidation Act of 2000 requires the Inspector General (IG) of
   each Federal agency to annually summarize what he or she considers to be the
   most serious management and performance challenges facing the agency and
   to assess the agency’s progress in addressing those challenges. In accordance
   with the Act, the IG at the U.S. Nuclear Regulatory Commission (NRC)
   updated what he considers to be the most serious management and performance
   challenges facing NRC. The IG considered the overall work of the Office of
   the Inspector General (OIG), the OIG staff’s general knowledge of agency
   operations, and other relevant information to develop and update his list of
   management and performance challenges. In addition, OIG staff sought input
   from NRC’s Chairman, Commissioners, and management to obtain their views
   on what challenges the agency is facing and what efforts the agency has taken
   or are underway or planned to address previously identified management and
   performance challenges.

•	 NRC’s contract award process will continue to play an increasingly critical role
   as the NRC continues to carry out its regulatory responsibility to ensure that the
   Nation’s 104 commercial nuclear power plants are operated in a safe and secure
   manner. NRC obligated approximately $175M with 1,727 contract actions
   in 2009 and approximately $211M with 2,705 contract actions in 2010. This
   evaluation was undertaken to assess the compliance of NRC’s contract award
   process and to identify opportunities to improve both the efficiency and the
   performance of the NRC contracting process, as well as adequacy of internal
   controls over the process. The evaluation focused on new contract awards
   during fiscal years 2009 and 2010.

•	 The Chief Financial Officers Act of 1990, as amended, requires the Inspector
   General or an independent external auditor, as determined by the Inspector
   General, to annually audit NRC’s financial statements to determine whether
   the agency’s financial statements are free of material misstatement. The audit
   includes examining, on a test basis, evidence supporting the amounts and
   disclosures in the financial statements. It also includes assessing the accounting
   principles used and significant estimates made by management as well as
   evaluating the overall financial statement presentation. In addition, the audit
   evaluated the effectiveness of internal controls over financial reporting and the
   agency’s compliance with laws and regulations.

•	 On December 17, 2002, the President signed the E-Government Act of 2002,
   which included the Federal Information Security Management Act (FISMA)
   of 2002. FISMA outlines the information security management requirements
   for agencies, which include an annual independent evaluation of an agency’s
   information security program and practices to determine their effectiveness.


                                                                               October 1, 2011–March 31, 2012   v
                         This evaluation must include testing the effectiveness of information security
                         policies, procedures, and practices for a representative subset of the agency’s
                         information systems. FISMA requires the annual evaluation to be performed
                         by the agency’s Office of the Inspector General or by an independent external
                         auditor.  Office of Management and Budget (OMB) memorandum M-11-33,
                         FY 2011 Reporting Instructions for the Federal Information Security Management
                         Act and Agency Privacy Management, dated September 14, 2011, requires OIGs
                         to respond to OMB’s annual FISMA reporting questions directed to OIGs
                         via an automated collection tool. The evaluation objective was to perform an
                         independent evaluation of the NRC’s implementation of FISMA for FY 2011.

                     •	 NRC regulates uranium recovery operations.  Through the 1980s, commercial
                        uranium recovery mills operated in support of both a fledgling nuclear power
                        industry and U.S. defense programs. The waste from the mills (uranium mill
                        tailings) caused environmental contamination that the Federal Government
                        continues to address. In 1978, Congress enacted the Uranium Mill Tailings
                        Radiation Control Act (UMTRCA) to provide for the disposal, long-term
                        stabilization, and control of uranium mill tailings in a safe and environmentally
                        sound manner, to minimize or eliminate radiation health hazards to the public.
                        UMTRCA defines two categories of uranium mill tailings sites (Title I and
                        Title II) and assigns differing responsibilities to three Federal agencies (NRC,
                        the Environmental Protection Agency, and the Department of Energy). NRC’s
                        responsibility is to ensure that decommissioning at both Title I and Title II
                        sites meets the standards for protecting human health and the environment.
                        The audit objective was to determine the effectiveness of NRC’s regulatory
                        oversight of decommissioned uranium recovery sites and sites undergoing
                        decommissioning.

                     •	 NRC regulates commercial nuclear power plants and other civilian uses of
                        nuclear materials, such as nuclear medicine, through licensing, inspection, and
                        enforcement of its requirements. In carrying out its regulatory responsibilities,
                        NRC uses administrative actions, such as Confirmatory Action Letters (CALs) to
                        supplement the agency’s enforcement program. CALs are “letters confirming a
                        licensee’s agreement to take certain actions to remove significant concerns about
                        health and safety, safeguards, or the environment.” NRC expects the recipient
                        of a CAL to adhere to any obligations and commitments addressed in the
                        letter. CALs do not establish legally binding commitments with the exception
                        of a provision to report information to NRC. From January 1, 2000, to
                        April 30, 2011, NRC issued approximately 195 CALs to different entities,
                        including nuclear power plants, decommissioned reactors, research and test
                        reactors, materials licensees, certificate of compliance holders, and non-licensees.  
                        The audit objective was to determine the effectiveness of NRC’s utilization of
                        CALs as a regulatory tool.




vi   NRC Office of the Inspector General Semiannual Report to Congress
•	 NRC’s baseline security inspection program is the agency’s primary means for
   ensuring that nuclear power plants across the United States are protected in
   accordance with Federal Government regulations. Specifically, the baseline
   security inspection program has six objectives. To meet these objectives, NRC
   conducts routine inspections at nuclear power plants that focus on specific issue
   areas such as access controls, protective strategy, security training, and safeguards
   information controls. The Significance Determination Process is the process
   by which NRC staff assess the risks and potential effects of inspection findings.
   The audit objective was to evaluate NRC’s management of the baseline security
   inspection program, including specific program features such as the Significance
   Determination Process.




INVESTIGATIONS
•	 OIG conducted an investigation into an allegation that sensitive information
   concerning the outcome of a non-public Commission vote was leaked to the
   office of U.S. Senator Bernard Sanders (VT). The vote pertained to a “Statement
   of Interest” matter (i.e., pre-empted by Federal law) by the Department of Justice
   in a lawsuit filed by Entergy Nuclear against the State of Vermont.

•	 OIG conducted an investigation into an allegation from the NRC Division of
   Facilities and Security that an e-mail was sent from a “hotmail” account to the
   NRC Chairman’s Resource e-mail account containing harassing language that
   rises to the level of character defamation concerning the NRC Chairman.

•	 OIG completed an investigation based on an allegation from NRC Division of
   Contracts staff, that an NRC contractor had submitted questionable invoices to
   NRC for certain task orders on an information technology support contract. The
   questionable invoices contained overtime hours, which according to Division of
   Contracts staff, required preapproval by the NRC.

•	 OIG conducted an investigation into an allegation that NRC’s Region II
   Regional Administrator failed to protect public health and safety by not
   inspecting North Anna Nuclear Power Plant (North Anna), Unit 1 internals,
   after it was shut down due to an August 23, 2011, earthquake centered in Mineral,
   Virginia. In accordance with Management Directive 8.3, “NRC Incident
   Investigation Program,” NRC dispatched an Augmented Inspection Team to
   North Anna to better understand the event and the licensee’s response after the
   earthquake.

•	 OIG conducted an investigation based on an allegation that the principal
   investigator for a $450,000 NRC education grant, awarded to the City College
   of New York (CCNY), to develop a Nuclear Thermal-Hydraulics and Safety
   Research program, and another CCNY professor utilized grant funding to travel
   internationally to attend conferences without prior authorization from NRC.



                                                                       October 1, 2011–March 31, 2012   vii
                     •	 OIG conducted an investigation based on a referral from the NRC Division of
                        Waste Management and Environmental Protection relating to a Title 10, Code
                        of Federal Regulations , Section 2.206 petition filed by a resident of Hawaii. The
                        alleger requested NRC take action against the U.S. Army for violating an NRC
                        source material license. The alleger asserted that the U.S. Army potentially
                        violated the law after its license expired in handling and disposing of depleted
                        uranium for spotting rounds used for the Davy Crockett weapons system.

                     •	 OIG conducted an investigation following notification from the NRC Computer
                        Security Office into an allegation of a possible leak of NRC employees’
                        Personally Identifiable Information through an e-mail sent from an Office of
                        Personnel Management training provider that manages the NRC’s learning
                        management system.




viii   NRC Office of the Inspector General Semiannual Report to Congress
Overview of NRC and OIG
NRC’s Mission
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear materials.
The agency succeeded the Atomic Energy Commission, which previously had
responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 Reactors—Commercial reactors that generate
    electric power and research and test reactors used
    for research, testing, and training.

•	 M
    aterials—Uses of nuclear materials in medical,
   industrial, and academic settings and facilities that
   produce nuclear fuel.

•	 W
    aste—Transportation, storage, and disposal of
   nuclear materials and waste, and decommissioning of
   nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for
nuclear facilities and users of nuclear materials, and (3) inspect facilities and users
of nuclear materials to ensure compliance with the requirements. These regulatory
functions relate both to nuclear power plants and other uses of nuclear materials
– like nuclear medicine programs at hospitals, academic activities at educational
institutions, research, and such industrial applications as gauges and testing
equipment.

NRC maintains a current Web site and a public document room at NRC
headquarters in Rockville, Maryland; holds public hearings and public meetings
in local areas and at NRC offices; and engages in discussions with individuals and
organizations.

	




                                                                         October 1, 2011–March 31, 2012   1
                     OIG History, Mission, And Goals
                     OIG History
                     In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                     by newspapers, television, and radio stations took a toll on the American public’s
                     faith in its Government. The U.S. Congress knew it had to take action to restore
                     the public’s trust. It had to increase oversight of Federal programs and operations.
                     It had to create a mechanism to evaluate the effectiveness of Government programs.
                     And, it had to provide an independent voice for economy, efficiency, and effectiveness
                     within the Federal Government that would earn and maintain the trust of the
                     American people.

                     In response, Congress passed the landmark legislation known as the Inspector
                     General (IG) Act, which President Jimmy Carter signed into law in 1978. The IG
                     Act created independent Inspectors General, who would protect the integrity of
                     Government; improve program efficiency and effectiveness; prevent and detect
                     fraud, waste, and abuse in Federal agencies; and keep agency heads, Congress, and
                     the American people fully and currently informed of the findings of IG work.

                     Today, the IG concept is a proven success. IGs continue to deliver significant
                     benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                     have been returned to the Federal Government or have been better spent based
                     on recommendations identified through those audits and investigations. IG
                     investigations have also contributed to the prosecution of thousands of wrongdoers.
                     In addition, IG concepts of good governance, accountability, and monetary recovery
                     encourages foreign governments to seek advice from IGs, with the goal of replicating
                     the basic IG principles in their own governments.




2   NRC Office of the Inspector General Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1)
independently and objectively conduct and supervise audits and investigations
relating to NRC programs and operations; (2) prevent and detect fraud, waste, and
abuse; and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing this
commitment. Such planning ensures that audit and investigative resources are used
effectively. To that end, OIG developed a Strategic Plan1 that includes the major
challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expectations
regarding the goals OIG expects to achieve and the strategies that will be employed
to do so. OIG’s Strategic Plan features three goals, which generally align with NRC’s
mission and goals:

1.	Strengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	Enhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	Increase the economy, efficiency, and effectiveness with which NRC
    manages and exercises stewardship over its resources.




1
    OIG’s current Strategic Plan covers the period FY 2008 through FY 2013.




                                                                              October 1, 2011–March 31, 2012   3
OIG Programs and Activities
                     Audit Program
                     The OIG Audit Program focuses on management and financial operations;
                     economy or efficiency with which an organization, program, or function is
                     managed; and whether the programs achieve intended results. OIG auditors
                     assess the degree to which an organization complies with laws, regulations, and
                     internal policies in carrying out programs, and they test program effectiveness as
                     well as the accuracy and reliability of financial statements. The overall objective
                     of an audit is to identify ways to enhance agency operations and promote greater
                     economy and efficiency. Audits comprise four phases:

                     •	 Survey phase—An initial phase of the audit process is used to gather
                          information, without detailed verification, on the agency’s organization,
                          programs, activities, and functions. An assessment of vulnerable areas determines
                          whether further review is needed.

                     •	 Verification phase—Detailed information is obtained to verify findings and
                         support conclusions and recommendations.

                     •	 Reporting phase—The auditors present the information, findings, conclusions,
                         and recommendations that are supported by the evidence gathered during the
                         survey and verification phases. Exit conferences are held with management
                         officials to obtain their views on issues in the draft audit report. Comments from
                         the exit conferences are presented in the published audit report, as appropriate.
                         Formal written comments are included in their entirety as an appendix in the
                         published audit report.

                     •	 Resolution phase—Positive change results from the resolution process in which
                         management takes action to improve operations based on the recommendations
                         in the published audit report. Management actions are monitored until final
                         action is taken on all recommendations. When management and OIG cannot
                         agree on the actions needed to correct a problem identified in an audit report,
                         the issue can be taken to the NRC Chairman for resolution.

                     Each September, OIG issues an Annual Plan that summarizes the audits planned
                     for the coming Fiscal Year. Unanticipated high priority issues may arise that
                     generate audits not listed in the Annual Plan. OIG audit staff continually monitor
                     specific issues areas to strengthen OIG’s internal coordination and overall planning
                     process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                     IAMs are assigned responsibility for keeping abreast of major agency programs and
                     activities. The broad IAM areas address nuclear reactors, nuclear materials, nuclear
                     waste, international programs, security, information management, and financial
                     management and administrative programs.

                     	




4   NRC Office of the Inspector General Semiannual Report to Congress
Investigative Program
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to NRC
programs and activities, investigating misconduct by NRC employees, interfacing
with the Department of Justice on OIG-related criminal matters, and coordinating
investigations and other OIG initiatives with Federal, State, and local investigative
agencies and other OIGs. Investigations may be initiated as a result of allegations or
referrals from private citizens; licensee employees; NRC employees; Congress; other
Federal, State, and local law enforcement agencies; OIG audits; the OIG Hotline; and
IG initiatives directed at areas bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention to investigations of
alleged conduct by NRC staff that could adversely impact matters related to health
and safety. These investigations may address allegations of:

•	 M
    isconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 F
    ailure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 F
    ailure by NRC to appropriately transact nuclear regulation publicly and
   candidly and to openly seek and consider the public’s input during the regulatory
   process.

•	 C
    onflicts of interest involving NRC employees and NRC contractors and
   licensees, including such matters as promises of future employment for favorable
   or inappropriate treatment and the acceptance of gratuities.

•	 F
    raud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse.  A
primary focus is electronic-related fraud in the business environment.  OIG is
committed to improving the security of this constantly changing electronic business
environment by investigating unauthorized intrusions and computer-related fraud,
and by conducting computer forensic examinations. Other proactive initiatives focus
on determining instances of procurement fraud, theft of property, Government credit
card abuse, and fraud in Federal programs.

	



                                                                        October 1, 2011–March 31, 2012   5
                     Oig General Counsel Regulatory
                     Review
                     Regulatory Review
                     Pursuant to the Inspector General Act, Title 5, U.S. Code, Appendix 3, Section
                     4(a)(2), OIG reviews existing and proposed legislation, regulations, policy, and
                     implementing Management Directives (MD), and makes recommendations to the
                     agency concerning their impact on the economy and efficiency of agency programs
                     and operations.

                     Regulatory review is intended to provide assistance and guidance to the agency
                     prior to the concurrence process so as to avoid formal implementation of potentially
                     flawed documents. The OIG does not concur or object to the agency actions
                     reflected in the regulatory documents, but rather offers comments and requests
                     responsive action within specified timeframes.

                     Comments provided in regulatory review reflect an objective analysis of the language
                     of proposed agency statutes, directives, regulations, and policies resulting from OIG
                     insights from audits, investigations, and historical data, along with experience with
                     agency programs. The OIG review is structured to identify vulnerabilities and offer
                     additional or alternative choices.

                     During this reporting period, OIG reviewed numerous agency documents, including
                     Commission papers (SECYs), Staff Requirements Memoranda, Federal Register
                     Notices, regulatory actions, and statutes.

                     To effectively track the agency’s response to OIG regulatory review, comments to
                     agency offices include a request for written replies within 90 days, with either a
                     substantive reply or status of issues raised by OIG.

                     Telework Management Directive
                     OIG reviewed the draft agency Management Directive and Directive Handbook
                     on Telework. Significant review comments provided by OIG are summarized
                     below:

                     •	 O
                         IG suggested the addition of a description of the series of forms related
                        to telework requests and approvals (e.g., Employee Request to Participate
                        in the Telework Program; Evaluation of Employee Request to Participate
                        in the Telework Program; Telework Program Participation Agreement; and
                        the Telework Program Employee Self-Certification Safety Checklist), an
                        identification of these forms at the end of the handbook to facilitate their
                        reference, and a description of the telework process.

                     •	 O
                         IG suggested that in order to further promote the advantages of telework
                        and encourage its use, telework should be incorporated as a component of
                        emergency planning and work life balance.


6   NRC Office of the Inspector General Semiannual Report to Congress
•	 W
    ith regard to OIG’s role, suggested changes were provided to reflect that
   OIG conducts audits and investigations related to the telework program, not
   only to promote economy, efficiency, and effectiveness, but also prevent and
   detect fraud, waste, abuse, and mismanagement.

•	 O
    IG commented on functions related to information technology (IT) aspects
   of telecommuting and offered overall suggestions on clarifying office roles
   and responsibilities related to telework functions.

•	 O
    IG recommended that the review requirement by the Office of Information
   Services (OIS) be revised to reflect that its review is to ensure employees
   have all necessary IT equipment at the alternative work site to complete their
   work and to review requests for agency laptops and agency-owned software.  
   Further, OIG recommended clarification that the Computer Security Office
   (CSO) review is to ensure that participant access to and use of IT equipment
   meets agency computer security requirements.

•	 A
    lso, because the agency’s Telework Managing Officer serves as an advisor
   to agency leadership and the Agency’s Telework Coordinator administers the
   program, OIG suggested the directive be revised to provide that the Director,
   Office of Human Resources, and the Telework Managing Officer or Agency
   Telework Coordinator be notified of participants in the program.

•	 T
    o further define the responsibilities required of supervisors and managers,
   OIG suggested the directive state the full spectrum of their responsibilities.

•	 O
    IG suggested the directive include guidance that employees are also
   permitted to work from home during emergency situations on days that
   they are not regularly scheduled to telework. Further, OIG suggested that
   in addition to an included identification of positions not eligible for fixed-
   schedule telework, positions that are excluded from project-based telework, if
   any, should be spelled out.


Other OIG General Counsel Activities
Support of the IG Community in Training and Presentation
The Council of Counsels to Inspectors General, a group of attorneys who serve as
legal advisors in the Federal Inspector General community, in response to a
request from the American Bar Association Administrative Law and Regulatory
Practice Section Conference, made a panel presentation at the conference
titled, “OIG 101.”  As part of a five-member panel, the NRC OIG General
Counsel, Maryann Lawrence Grodin, addressed aspects of legal practice related
to administrative law, including ethics and privacy issues, to more than 50
Government and private practice attorneys.




                                                                     October 1, 2011–March 31, 2012   7
                            Other Oig Activities
                            NRC OIG Receives CIGIE Awards for Excellence
                            In 2011, the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
                            recognized two OIG audit teams by awarding each the prestigious CIGIE Award for
                            Excellence.

                                                                              •	 T
                                                                                  he Nuclear Power Plant Access Security
                                                                                 Audit Team was recognized for outstanding
                                                                                 efforts to help ensure that individuals who
                                                                                 pose any type of threat to the United States
                                                                                 are not granted access to nuclear power
                                                                                 plants. The team consisted of Beth H.
                                                                                 Serepca, Team Leader; Robert L. Woodward,
                                                                                 Audit Manager; and Andrea M. Ferkile,
                                                                                 Senior Analyst.

                                                                              •	 T
                                                                                  he Nuclear Reactor Component Safety
                                                                                 Oversight Audit Team was recognized for
                                                                                 exceptional performance in identifying
Nuclear Power Plant Access Security Audit Team receives CIGIE Award
                                                                                 weaknesses in NRC’s implementation of
for Excellence. Pictured left to right are Steven E. Zane, Deputy Assistant
Inspector General for Audits; Andrea M. Ferkile, Senior Analyst; Stephen D.      programs to ensure the quality of safety-
Dingbaum, Assistant Inspector General for Audits; Beth H. Serepca, Team          related components supplied to U.S. Nuclear
Leader; David C. Lee, Deputy Inspector General; Hubert T. Bell, Inspector        power plants. The team consisted of Sherri A.
General; and Robert L. Woodward, Audit Manager.	
Source: NRC
                                                                                 Miotla, Team Leader; Robert K. Wild, Team
                                                                                 Leader; Kevin J. Nietmann, Senior Technical
                                                                                 Advisor; Michael S. Zeitler, Audit Manager;
                                                                                 Vicki L. Foster, Audit Manager; Levar S.
                                                                                 Cole, Senior Analyst; and Timothy Wilson,
                                                                                 Senior Analyst.

                            			

                            CIGIE Award for Excellence in Audit – Nuclear Power Plant Access
                            Security Audit
                            In March 2010, Sharif Mobley was arrested and charged in Yemen as a suspected
                            member of al Qaeda. Prior to his arrest, Mr. Mobley worked as a general laborer
                            with unescorted access at six nuclear power plants in the United States between 2002
                            and 2008. Mr. Mobley’s arrest prompted congressional interest and in early 2010,
                            following Mr.  Mobley’s arrest, Senator Charles Schumer (D-NY) and Congressman
                            William Owens (D-NY) sent letters to the NRC Inspector General requesting a
                            thorough and comprehensive review of NRC’s process requirements for licensees
                            granting unescorted access at nuclear power plants. Specifically, the requests asked the
                            Inspector General to analyze if current background checks and employee monitoring
                            are conducted in a manner that effectively ensures that individuals who may pose any
                            type of threat to the United States are not granted access to nuclear power plants.


8    NRC Office of the Inspector General Semiannual Report to Congress
NRC’s access authorization requirements are intended to provide high assurance
that individuals granted unescorted access to nuclear power plants are trustworthy
and reliable and do not constitute an unreasonable risk to public health and safety,
including the potential to commit radiological sabotage.

Nuclear power plants need workers with unescorted access during normal operations
and scheduled outages (power generation shutdowns) for required maintenance.
During a scheduled outage, a significant additional workforce with specific skills
is required. Many of these workers move from one nuclear power plant, when the
required work is completed, to the next plant that is commencing its maintenance
outage.

Obtaining unescorted access requires that an individual satisfactorily completes
all NRC regulatory requirements established in the access authorization program.
The primary requirements that individuals must satisfy when initially applying for
unescorted access and during periodic reinvestigations consist of a background and
criminal history check, a psychological assessment, and a drug test.

The audit team found that NRC’s access authorization requirements could be
strengthened by implementing the audit report recommendations. As a result, NRC
will:

1.	Improve screening and monitoring of those individuals with unescorted access
    against a terrorist watch list and begin re-verifying those nuclear power plant
    employees on a more frequent basis.

2.	Require nuclear power plant operators to provide additional employee training
    so that workers can better identify and report behaviors associated with terrorist
    intent.

3.	Obtain direct access to an important background check database instead of access
    through a third party.

Senator Schumer was pleased with the audit report, stating that OIG “stepped up
to the plate and provided concrete, actionable recommendations that can be put in
place immediately.”



CIGIE Award for Excellence – Nuclear Reactor Component Safety
Oversight Audit
NRC endeavors to protect the public health and safety and the environment
by overseeing several programs for assuring the quality of domestic and global
components—which includes safety-related parts and services—that are supplied to
nuclear power reactors in the United States. Among these efforts are NRC programs
for vendor inspection and licensee reporting of manufacturing defects.




                                                                        October 1, 2011–March 31, 2012   9
                                                                                     NRC directly oversees vendor compliance
                                                                                     by conducting reactive and routine
                                                                                     inspections of vendors, and indirectly
                                                                                     through reactor licensee audits of
                                                                                     vendors and through American Society of
                                                                                     Mechanical Engineers standards. Vendors
                                                                                     manufacture a range of components such as
                                                                                     fasteners, pumps, valves, and reactor vessels,
                                                                                     as well as provide design, engineering,
                                                                                     and construction services. While most
                                                                                     vendors do not hold NRC licenses, they are
                                                                                     nonetheless bound through contracts with
                                                                                     licensees, applicants, or other vendors to
Nuclear Reactor Component Safety Oversight Audit Team receives CIGIE Award           comply with quality assurance and defect
for Excellence. Pictured left to right are Levar S. Cole, Senior Analyst; Kevin J.
Nietmann, Senior Technical Advisor; Timothy Wilson, Senior Analyst; Stephen D.       reporting regulations. In addition, vendors
Dingbaum, Assistant Inspector General for Audits; Vicki L. Foster, Audit Manager;    providing safety-related parts and services
David C. Lee, Deputy Inspector General; Hubert T. Bell, Inspector General; Michael   for the nuclear industry have become
S. Zeitler, Audit Manager; Sherri A. Miotla, Team Leader; Steven E. Zane,
Deputy Assistant Inspector General for Audits; and Robert K. Wild, Team Leader.
                                                                                     increasingly global over the last few decades.
Source: NRC
                                                                       Vendors and their customers often acquire
                             parts from commercial suppliers that do not produce parts specifically designed
                             or manufactured for a nuclear safety-related application.  These parts are called
                             commercial-grade items.  If a customer decides to purchase commercial-grade items,
                             NRC regulations require the customer receiving the items to use a commercial-
                             grade dedication process to provide reasonable assurance that these items destined
                             for use in nuclear power plants will perform their intended safety function.

                             Licensees also contribute to the quality of nuclear components through reporting
                             the failure of components to NRC. Section 206 of the Energy Reorganization Act
                             of 1974, as amended, provides NRC’s statutory basis for requiring licensees to report
                             component defects in operating reactors. A key provision in the regulations relates
                             to reporting defects in installed components that are caused by the manufacturing
                             process. Importantly, these manufacturing defect reports are used by NRC
                             to determine whether additional licensees have the same potentially defective
                             components installed in their plants.

                             The purpose of the audit work performed by the nuclear reactor component safety
                             oversight audit team was to (1) assess NRC’s regulatory approach for ensuring
                             the integrity of domestic and foreign safety-related parts and services supplied
                             to current or prospective nuclear power reactors, and (2) determine if NRC’s
                             implementation of Federal regulations requiring reactor licensees to report defects
                             contained in installed equipment is meeting the intent of Section 206 of the Energy
                             Reorganization Act of 1974, as amended.

                             The audit team identified key program implementation areas and guidance that
                             required management attention. Specifically, with regard to program planning and
                             implementation, the audit team found:



10     NRC Office of the Inspector General Semiannual Report to Congress
•	 T
    he agency’s planning process for identifying and selecting vendors for routine
   inspections, and its strategy for guiding the process, is largely an informal one,
   which could result in missing vendors that should be identified for potential
   vendor inspections and in appropriately focusing vendor inspections on verifying
   the vendor’s compliance with the regulations.

•	 N
    RC staff members are unsure of the effectiveness of the agency’s outreach and
   communications activities targeted to reactor licensees and nuclear component
   vendors because it does not have an outreach/communications plan to do so,
   resulting in NRC’s inability to fully identify and reach its target audience, or
   effectively plan presentations in light of varying vendor sophistication or ability
   to understand information.

•	 N
    RC’s approach to monitoring and evaluating counterfeit, fraudulent, and
   substandard items has been primarily reactive and informal, contributing to
   NRC’s inability to identify such issues in a timely fashion, with the potential for
   counterfeit or fraudulent components being installed in safety-related reactor
   systems.

With regard to program guidance and requirements, the audit team found:

•	 N
    RC’s expectations and requirements for licensees and vendors in obtaining
   parts from non-nuclear, commercial suppliers are unclear, which could result in
   substandard safety-related parts being supplied to nuclear power plants.

•	 N
    RC’s guidance for approving accredited commercial-grade calibration
   laboratories—which calibrate measuring and test equipment used by vendors
   to evaluate the properties of materials and parts—is unclear, potentially leaving
   vendors unknowingly in violation of NRC regulations and later determining
   that they used out-of-calibration measuring and test equipment during the
   manufacture and assembly of safety-related components.

•	 N
    RC regulations and guidance for licensees to report manufacturing component
   defects are contradictory and unclear, leaving licensees uncertain as to NRC’s
   expectations for submitting component defect reports, underreporting or
   non-reporting of such defects, and thus a reduced margin-of-safety for operating
   nuclear power reactors when licensees fail to report manufacturing defects.

•	 N
    RC’s Baseline Inspection Program does not include requirements to inspect
   licensee reporting of such defects, which impedes NRC inspectors’ ability to
   enforce defect reporting requirements.

Ultimately, these report findings point to risks in NRC’s and the nuclear industry’s
ability to ensure the quality and integrity of safety-related components supplied to
U.S. Nuclear power plants. If counterfeit or fraudulent items were to make it into
a safety-related system in a nuclear power plant, it could degrade the ability of the
system to perform its safety function, which could reduce the protection of public



                                                                        October 1, 2011–March 31, 2012   11
                           health and safety. Similarly, if component defects go unreported, it is possible that
                           substandard safety-related parts could be supplied to, or in service at, operating
                           nuclear power plants.



                                                                     Special Feature Article:
                                                                     OIG Radiography Training
                                                                     In accordance with Federal Government Accounting
                                                                     Standards, audit professionals should have the collective
                                                                     experience, training, knowledge, skills, abilities,
                                                                     and overall understanding of an area sufficiently to
                                                                     assess the risks of the audit subject matter. To fulfill
                                                                     training needs before beginning the audit of NRC’s
                                                                     oversight of radiography sources, OIG staff requested
                                                                     that the NRC’s Technical Training Center2 develop a
                                                                     radiography course for OIG staff.
Latonya Mahlahla, Sr. Health Physicist, oversees OIG Audit
Program Staff Kevin Nietmann and Tim Wilson as they work
with the radiography camera during an NRC radiography class.	        Topics covered by the radiography course, conducted
Source: NRC                                                          in November 2011 in Rockville, Maryland, included:

                           •	 An introduction to ionizing radiation terminology.

                           •	 How radiography cameras work.

                           •	 How the sources in the cameras are changed.

                           •	 The radiographer certification process and requirements.

                           •	 W
                               hat can go wrong during industrial radiography operations (risks to the
                              workers and the public).

                           Of particular interest during the training was a focus on safety measures for OIG
                           staff who would be observing radiography inspections in the field. The instructor
                           reviewed radiation monitoring requirements and practices; dosimetry requirements;
                           how to wear, use, and read dosimetry properly; and ALARA3 principles, including
                           time, distance, and shielding.

                           The training was well received by OIG audit staff auditors who, subsequently, were
                           well prepared to observe NRC inspectors conduct inspections at licensees’ facilities
                           and temporary job sites.


                           2
                                RC’s Technical Training Center was established in Chattanooga, Tennessee in 1980, after the event at Three
                               N
                               Mile Island, to improve technical training for NRC staff.
                           3
                               As defined in Title 10, Section 20.1003, of the Code of Federal Regulations (10 CFR 20.1003), ALARA is
                               an acronym for “as low as (is) reasonably achievable,” which basically means making every reasonable effort to
                               maintain exposures to ionizing radiation as far below the dose limits as practical.


12     NRC Office of the Inspector General Semiannual Report to Congress
Management and
Performance Challenges
    Most Serious Management and Performance Challenges
         Facing the Nuclear Regulatory Commission*
                      as of October 1, 2011
               (as identified by the Inspector General)
  Challenge 1	 Oversight of nuclear material used for civilian purposes.

  Challenge 2	Managing information to balance security with openness and
               accountability.

  Challenge 3	Ability to modify regulatory processes to meet a changing environment,
               to include the licensing of new nuclear facilities.

  Challenge 4	 Oversight of radiological waste.

  Challenge 5	 I mplementation of information technology and information security
                measures.

  Challenge 6	Administration of all aspects of financial management and procurement.

  Challenge 7	 Managing human capital.


*The most serious management and performance challenges are not ranked in any order
  of importance.




                                                                           October 1, 2011–March 31, 2012   13
                    Audits
                     To help the agency improve its effectiveness and efficiency during this period, OIG
                     completed 11 financial and performance audits or evaluations, seven of which are
                     summarized here that resulted in numerous recommendations to NRC management.
                     In addition, Defense Contract Audit Agency completed two contract audits for OIG.

                     AUDIT SUMMARIES
                     Inspector General’s Assessment of the Most Serious
                     Management and Performance Challenges Facing NRC
                     OIG Strategic Goal: Corporate Management
                     The Reports Consolidation Act of 2000 requires the Inspector General (IG) of each
                     Federal agency to annually summarize what he or she considers to be the most serious
                     management and performance challenges facing the agency and to assess the agency’s
                     progress in addressing those challenges.

                     In accordance with the Act, the IG at the NRC updated what he considers to be
                     the most serious management and performance challenges facing NRC. The
                     IG considered OIG’s overall work, the OIG staff’s general knowledge of agency
                     operations, and other relevant information to develop and update his list of
                     management and performance challenges. In addition, OIG staff sought input from
                     NRC’s Chairman, Commissioners, and management to obtain their views on what
                     challenges the agency is facing and what efforts the agency has taken or are underway
                     or planned to address previously identified management and performance challenges.

                     Evaluation Results:
                     The IG identified seven challenges that he considers the most serious management and
                     performance challenges facing NRC. The challenges identify critical areas or difficult
                     tasks that warrant high-level management attention.  

                     The 2011 list of challenges reflects two changes from the 2010 list. Prior Challenge
                     1, Protection of nuclear material used for civilian purposes, was reworded to Oversight of
                     nuclear material used for civilian purposes. This change was made to more accurately
                     describe NRC’s regulatory oversight role relative to nuclear material as NRC does not
                     directly protect nuclear material, but provides oversight of licensees that are charged
                     to protect the material. Prior Challenge 3, Ability to modify regulatory processes to meet
                     a changing environment, to include the licensing of new nuclear facilities, was reworded to
                     reflect changing economic conditions for new facility construction, as well as ongoing
                     efforts to evaluate post-Fukushima Dai-ichi lessons learned for NRC’s oversight
                     of currently operating facilities. Current Challenge 3 now reads Ability to modify
                     regulatory processes to meet a changing environment in the oversight of nuclear facilities.




14   NRC Office of the Inspector General Semiannual Report to Congress
The following chart provides an overview of the seven most serious management and
performance challenges as of October 1, 2011.


     Most Serious Management and Performance Challenges
          Facing the Nuclear Regulatory Commission*
                       as of October 1, 2011
                (as identified by the Inspector General)
  Challenge 1	 Oversight of nuclear material used for civilian purposes.

  Challenge 2	Managing information to balance security with openness and
               accountability.

  Challenge 3	Ability to modify regulatory processes to meet a changing environment,
               to include the licensing of new nuclear facilities.

  Challenge 4	 Oversight of radiological waste.

  Challenge 5	 I mplementation of information technology and information security
                measures.

  Challenge 6	Administration of all aspects of financial management and procurement.

  Challenge 7	 Managing human capital.


*The most serious management and performance challenges are not ranked in any order
  of importance.

(Addresses All Management and Performance Challenges)


Independent Evaluation of NRC’s Contract Award Process
OIG Strategic Goal: Corporate Management
NRC’s contract award process will continue to play an increasingly critical role as the
NRC continues to carry out its regulatory responsibility to ensure that the Nation’s
104 commercial nuclear power plants are operated in a safe and secure manner.
NRC obligated approximately $175M with 1,727 contract actions in 2009 and
approximately $211M with 2,705 contract actions in 2010.

This evaluation was undertaken to assess the compliance of NRC’s contract
award process and to identify opportunities to improve both the efficiency and
the performance of the NRC contracting process, as well as adequacy of internal
controls over the process. The evaluation focused on new contract awards during
FYs 2009 and 2010. OIG contracted with Censeo Consulting Group to evaluate the
NRC’s contract award process for regulatory compliance, timeliness, efficiency, and


                                                                           October 1, 2011–March 31, 2012   15
                     effectiveness. The evaluation considered the major aspects of the contract award
                     process, including regulatory compliance, training of those who use or facilitate the
                     contract award process, market research, sole-source awards, justifications for other
                     than full and open competition, policies and procedures, and internal controls.

                     The results of the evaluation were based on 20 interviews and more than 200
                     responses to a survey of program office and Division of Contracts (DC) personnel.
                     Furthermore, evaluators reviewed 20 sample contract actions and relevant policy
                     documents.

                     Evaluation Results:
                     The evaluation identified several positive findings that represent aspects of NRC’s
                     process:

                     •	 NRC’s culture is mission-focused and driven to succeed.

                     •	 Compliance issues are rare and relatively insignificant.

                     •	 P
                         rocess improvements already underway were supported by the results of this
                        evaluation.

                     •	 DC is well organized and maintains extensive records.

                     However, the analysis also identified opportunities for NRC to streamline its contract
                     award process while maintaining those aspects that are already mastered. Specifically,
                     five findings and observations were identified in the following areas:

                     Contract award policies and procedures—The evaluation identified perceptions
                     among agency program office staff that contract award policies and procedures are
                     out of date and difficult to access. As a result, many program office staff members are
                     not formally utilizing policies and procedures related to the contract award process,
                     relying instead on anecdotal guidance. As a result, procedures may be implemented
                     inconsistently from person to person, resulting in inconsistent work products and
                     potential confusion among both DC and agency program office staff.

                     Contract award process roles, responsibilities, and expectations—While the
                     initial documents that project officers provide to DC should meet DC’s expectations
                     for regulatory compliance, there is the perception that this is often not the case.
                     Although DC ultimately gets final contract award documents into compliance, initial
                     project officer documents lack sufficient rigor to comply with Federal contracting
                     requirements and DC expectations. This situation often results in rework, usually
                     accomplished by DC staff, who do not feel they should be performing this function.
                     This need to rework the documents delays the process and prevents DC personnel
                     from performing other duties, which makes DC staff feel overworked, affects the
                     quality and timeliness of other DC work, and contributes to the frustration between
                     DC and program office staff.




16   NRC Office of the Inspector General Semiannual Report to Congress
Source Evaluation Panel (SEP) documentation—Despite generally arriving at
defensible decisions, SEPs often fail to document their decisions in a manner that
meets DC and Office of the General Counsel (OGC) expectations of thorough,
logical, defensible written communications within the report. When a report fails to
meet DC/OGC expectations, DC and OGC often work with the SEP members to
rework the report. This rework makes the process take longer, which delays awards.

Timeliness of contract award—Although DC communicates final award schedules,
they are based on Procurement Administrative Lead Times, which are outdated and
unrealistic due to many factors.

Program office satisfaction—The survey noted a low level of program office staff
satisfaction with DC support and a perception on the part of both program office and
DC staff that employee retention issues have made it difficult for DC to maintain
adequate human resources required to address this issue. At the same time, it was
noted that there are already a number of actions being taken to address this issue and
it was not yet clear whether these actions would be adequate or whether other actions
would be needed.

(Addresses Management and Performance Challenge #6)



Results of the Audit of the United States Nuclear Regulatory
Commission’s Financial Statements for Fiscal Year 2011
OIG Strategic Goal: Corporate Management
The Chief Financial Officers Act of 1990, as amended, requires the Inspector
General or an independent external auditor, as determined by the Inspector General,
to annually audit NRC’s financial statements to determine whether the agency’s
financial statements are free of material misstatement. The audit, conducted by
Clifton Gunderson under a contract with OIG, includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. It also
includes assessing the accounting principles used and significant estimates made by
management as well as evaluating the overall financial statement presentation.

In addition, the audit evaluated the effectiveness of internal controls over financial
reporting and the agency’s compliance with laws and regulations.

Audit results:
Financial Statements

The auditors expressed an unqualified opinion on the agency’s FY 2011 financial
statements.




                                                                          October 1, 2011–March 31, 2012   17
                     Internal Controls

                     The auditors expressed an unqualified opinion on the agency’s internal controls.

                     Compliance with Laws and Regulations

                     The auditors found no reportable instances of noncompliance with laws and
                     regulations.

                     (Addresses Management and Performance Challenge #6)



                     Independent Evaluation of NRC’s Implementation of the Federal
                     Information Security Management Act (FISMA) for FY 2011
                     OIG Strategic Goal: Security
                     On December 17, 2002, the President signed the E-Government Act of 2002, which
                     included the Federal Information Security Management Act (FISMA) of 2002.4
                     FISMA outlines the information security management requirements for agencies,
                     which include an annual independent evaluation of an agency’s information security
                     program5 and practices to determine their effectiveness. This evaluation must include
                     testing the effectiveness of information security policies, procedures, and practices for a
                     representative subset of the agency’s information systems. FISMA requires the annual
                     evaluation to be performed by the agency’s OIG or by an independent external auditor.
                     Office of Management and Budget (OMB) memorandum M-11-33, FY 2011 Reporting
                     Instructions for the Federal Information Security Management Act and Agency Privacy
                     Management, dated September 14, 2011, requires OIGs to respond to OMB’s annual
                     FISMA reporting questions directed to OIGs via an automated collection tool.

                     Richard S. Carson & Associates, Inc. (Carson Associates), under contract with OIG,
                     performed an independent evaluation of NRC’s implementation of FISMA for
                     FY 2011. Carson Associates also submitted responses to OMB’s annual FISMA
                     reporting questions for OIGs.

                     The evaluation objective was to perform an independent evaluation of the NRC’s
                     implementation of FISMA for FY 2011.

                     Evaluation Results:
                     Program Enhancements and Improvements

                     Over the past 9 years, NRC has continued to make improvements to its information
                     system security program and continues to make progress in implementing the

                     4
                          ISMA was enacted on December 17, 2002, as part of the E-Government Act of 2002 (Public Law 107-347),
                         F
                         and replaces the Government Information Security Reform Act, which expired in November 2002.
                     5
                         For the purposes of FISMA, the agency uses the term “information system security program.”


18   NRC Office of the Inspector General Semiannual Report to Congress
recommendations resulting from previous FISMA evaluations. The agency has
accomplished the following since the FY 2010 FISMA independent evaluation:

•	 T
    he agency continued to make significant progress in assessing and authorizing
   its systems.6 In FY 2011, the agency completed security assessment and
   authorization of two new agency systems, and completed security assessment
   and re-authorization of two existing agency systems and one existing contractor
   system.7 As of the completion of fieldwork for FY 2011, all 22 operational NRC
   information systems and both systems used or operated by a contractor or other
   organization on behalf of the agency had a current authorization to operate.

•	 T
    he agency completed or updated security plans for all of the agency’s 22
   operational systems and for both contractor systems.

•	 T
    he agency completed annual security control testing for all agency systems and
   for all contractor systems.

•	 T
    he agency completed annual contingency plan testing for all agency systems and
   for all contractor systems, including updating the contingency plans.

•	 T
    he agency issued several new or updated Computer Security Office processes
   and standards. This included the NRC Risk Management Framework and
   Authorization Process (new), a series of standards defining the values NRC has
   assigned for the 17 families of security controls (new), the NRC System Back-up
   Standard (new), and the NRC Plan of Action and Milestones (POA&M) Process
   (updated).

Program Weaknesses

While the agency has continued to make improvements in its information system
security program and has made progress in implementing the recommendations
resulting from previous FISMA evaluations, the independent evaluation identified
three information system security program weaknesses:

•	 T
    here is a repeat finding from several previous independent evaluations: the
   agency’s POA&M program still needs improvement.

•	 The agency has not developed an organization-wide risk management strategy.

•	 Configuration management procedures are not consistently implemented.

(Addresses Management and Performance Challenge #5)


6
     ith the issuance of NIST SP 800-37, Revision 1, Guide for Applying the Risk Management Framework
    W
    to Federal Information Systems, the terms certification and accreditation are no longer being used. The new
    terminology is security assessment and authorization.
7
     he Licensing Support Network was decommissioned subsequent to re-authorization. This system is no longer
    T
    included in the agency’s inventory of contractor systems.


                                                                                                 October 1, 2011–March 31, 2012   19
                        Audit of NRC’s Oversight of Decommissioned Uranium
                        Recovery Sites and Sites Undergoing Decommissioning
                        OIG Strategic Goal: Safety
                                                                    NRC regulates uranium recovery
                                                                    operations. Through the 1980s,
                                                                    commercial uranium recovery mills
                                                                    operated in support of both a fledgling
                                                                    nuclear power industry and U.S.
                                                                    defense programs. The waste from
                                                                    the mills (uranium mill tailings) caused
                                                                    environmental contamination that the
                                                                    Federal Government continues to address.

                                                                      In 1978, Congress enacted the Uranium
                                                                      Mill Tailings Radiation Control Act
The Rio Algom uranium   (UMTRCA) to provide for the disposal, long-term stabilization, and control of
mill tailings site in   uranium mill tailings in a safe and environmentally sound manner, to minimize or
Grants, NM.	
Source: NRC
                        eliminate radiation health hazards to the public. UMTRCA defines two categories of
                        uranium mill tailings sites (Title I and Title II) and assigns differing responsibilities
                        to three Federal agencies.

                        Under Title I, the Federal Government assumed responsibility for cleanup at
                        abandoned, inactive uranium milling sites. Once decommissioning is complete,
                        the Department of Energy’s (DOE) Office of Legacy Management accepts the site
                        for long-term care and maintenance under a general license from NRC.  As of
                        June 2011, decommissioning had been completed at 21 Title I sites.

                        Title II places responsibility for cleanup of sites with the licensees that were
                        operating in 1978 or licensed by NRC or an Agreement State after 1978. Licensees
                        must conduct cleanup activities according to an NRC approved reclamation plan.
                        Once cleanup activities are complete, NRC terminates the license and approves site
                        transfer to DOE. As of June 2011, decommissioning had been completed at six Title
                        II sites, which are now in long-term DOE custody.  Decommissioning is underway at
                        11 other NRC regulated Title II sites.

                        NRC, the Environmental Protection Agency (EPA), and DOE have distinct
                        responsibilities under UMTRCA. NRC’s responsibility is to ensure that
                        decommissioning at both Title I and Title II sites meets the standards for protecting
                        human health and the environment. EPA’s responsibility is to set the standards
                        for air and water quality. Additionally, EPA is responsible for administering the
                        Comprehensive Environmental Response, Compensation and Liability Act, as
                        amended (CERCLA), which impacts two uranium recovery sites undergoing
                        decommissioning.

                        EPA and NRC entered into memoranda of understanding (MOUs) regarding
                        oversight of two sites. The MOUs outline EPA and NRC obligations to coordinate


20     NRC Office of the Inspector General Semiannual Report to Congress
distinct regulatory responsibilities. DOE’s
responsibility under UMTRCA is to
remediate Title I sites and provide long-
term custody for both Title I and Title II
sites.

The audit objective was to determine the
effectiveness of NRC’s regulatory oversight
of decommissioned uranium recovery sites
and sites undergoing decommissioning.

Audit Results:
NRC’s oversight of Title I and Title II
uranium recovery decommissioning is
largely effective. In particular, recent NRC
                                                                                       A decommissioned Title
initiatives to improve knowledge management have addressed self-identified areas       I uranium mill tailings
of inefficiency and have enhanced the agency’s oversight efforts. However, OIG         site in Canonsburg, PA.	
has identified two opportunities for more effective oversight of uranium recovery      Source: NRC

decommissioning by:

•	 Improving compliance with the terms of the site-specific MOUs with EPA.

•	 R
    educing reliance on DOE’s inspection program to alert NRC to problems at
   decommissioned uranium recovery sites in DOE custody.

NRC Does Not Fully Comply With NRC-EPA CERCLA Site MOUs

NRC does not fully comply with the conditions of the jointly developed and agreed
upon MOUs with EPA for uranium recovery CERCLA sites. Specifically, NRC
has not provided required progress reports to EPA. An NRC senior manager
acknowledged that NRC is not meeting this requirement. Moreover, NRC has not
met its responsibility to conduct an annual review of the MOUs. Conditions in the
MOUs require NRC to review the MOUs annually in order to make modifications
based on changes in regulatory authorities or priorities. NRC senior managers stated
that agency staff never reviewed the MOUs.

NRC does not fully comply with the conditions of the MOUs with EPA for uranium
recovery sites subject to CERCLA. NRC agreed to conditions in the MOUs that
would promote effective and efficient regulatory oversight. However, NRC lacks
controls to ensure compliance with the terms of the MOUs. Therefore, NRC
approaches oversight of remediation activities in a way that increases the risk that
these activities will not occur in an effective and timely manner.

NRC Relies on DOE’s Inspection Program

NRC relies on DOE’s inspection program at decommissioned uranium recovery
sites in DOE custody. A DOE contractor conducts annual inspections of all uranium
mill tailing sites in DOE long-term custody, compiles the observations into separate

                                                                     October 1, 2011–March 31, 2012        21
                                                                    reports on the Title I and Title II sites, and
                                                                    then DOE submits the inspection reports to
                                                                    NRC.

                                                                  Although inspections are a key component
                                                                  of NRC’s oversight, NRC has chosen not to
                                                                  inspect the sites transferred to DOE. NRC
                                                                  managers explained that the agency conducts
                                                                  extensive oversight during decommissioning
                                                                  so that the sites will not require scrutiny
                                                                  after transfer. They contended that when
                                                                  regulatory requirements are met during
                                                                  decommissioning, NRC can certify that a
                                                                  site is stable and ready for closure with only
                                                                  minimal monitoring according to the long-
Uranium mill tailings        term surveillance plan. The managers also concluded that DOE would be at least as
on the banks of the
                             effective in monitoring as NRC would be, and therefore NRC could rely on DOE to
Colorado in Moab part
of a DoE cleanup project.	   alert NRC to any problems and address them through the process of amending the
Source: DOE                  long-term surveillance plan.   

                             Because NRC does not inspect sites transferred to DOE for long-term custody,
                             NRC may not know if all regulatory requirements are being met regarding the
                             protection of public health and safety and the environment. Some decommissioned
                             uranium recovery sites have proven more dynamic than originally expected, and
                             NRC may not have the best information regarding conditions at these sites. Transfer
                             of all remaining Title II sites to DOE will result in approximately 226 million metric
                             tons of radioactive and hazardous waste in DOE long-term custody.  Given the
                             current approach, NRC will not independently verify that these sites are meeting
                             regulatory standards that protect public health and safety and the environment.

                             (Addresses Management and Performance Challenge #4)



                             Audit of NRC’s Use of Confirmatory Action Letters
                             OIG Strategic Goal: Safety
                             NRC regulates commercial nuclear power plants and other civilian uses of nuclear
                             materials, such as in nuclear medicine, through licensing, inspection, and enforcement
                             of its requirements. In carrying out its regulatory responsibilities, NRC uses
                             administrative actions, such as Confirmatory Action Letters (CALs), to supplement
                             the agency’s enforcement program. CALs are “letters confirming a licensee’s
                             agreement to take certain actions to remove significant concerns about health and
                             safety, safeguards, or the environment.”

                             NRC expects CAL recipients to adhere to any obligations and commitments addressed
                             in the letter. CALs do not establish legally binding commitments with the exception of


22    NRC Office of the Inspector General Semiannual Report to Congress
a provision to report information to NRC. If a recipient failed to meet a commitment
in a CAL, according to agency guidance, NRC would likely proceed with stringent
enforcement sanctions such as an order. An order is an enforcement sanction that NRC
issues to modify, suspend, or revoke licenses or to impose civil penalties.

NRC’s Office of Enforcement (OE) is responsible for the development and
implementation of the NRC Enforcement Policy (Policy) and the NRC Enforcement
Manual (Manual). The Policy sets forth the general principles governing NRC’s
enforcement program. The Manual contains guidance on preparation, issuance,
coordination, tracking, and closure of CALs and delegates authority for issuing CALs
to the NRC regional administrators and some program office directors.

From January 1, 2000, to April 30, 2011, NRC issued approximately 195 CALs
to different entities, including nuclear power plants, decommissioned reactors,
research and test reactors, materials licensees, certificate of compliance holders,8 and
non-licensees.  During this approximate 11-year period, the agency has issued, on
average, 17 CALs each year, with NRR issuing the most and Region I issuing the
second largest number of CALs.

The audit objective was to determine the effectiveness of NRC’s utilization of
CALs as a regulatory tool. To meet this objective, auditors focused on the agency’s
administration of the CAL process.

Audit Results:
NRC’s administration of the CAL process is not as effective as it could be. The
agency’s position is that CALs are a valuable enforcement tool for obtaining timely
confirmation that the recipient has agreed to take action that will remove significant
concerns regarding health and safety, the environment, safeguards, or security. As
such, maintaining a viable and consistent CAL program is of utmost importance to
the agency.

However, NRC’s CAL guidance lacks consistency and the agency does not fully
comply with its guidance. Specifically, CAL guidance is inconsistent because the CAL
guidance does not include some offices’ roles or clearly identify all CAL recipients.
Further, NRC program and regional offices do not fully comply with CAL guidance.
Despite requirements contained in the Manual for the concurrence, tracking, and
numbering of CALs,

•	 Some required office concurrences on CALs are missing.

•	 CAL tracking practices vary among offices.

•	 CAL numbering conventions vary among offices.

8
     certificate of compliance holder is an entity that has a certificate issued by the Commission approving the design
    A
    of a spent fuel storage cask in accordance with Title 10 Code of Federal Regulations (10 CFR) Part 72, Licensing
    Requirements for the Independent Storage of Spent Nuclear Fuel, High-Level Radioactive Waste and Reactor-
    Related Greater than Class C Waste.


                                                                                                    October 1, 2011–March 31, 2012   23
                     Various Recipients and Concerns Adressed in CALs
                      Recipient Type                                   Concern                           Issuing Office
                      Commercial Power Reactor                         Inattentive security guards       Region I
                      Licensee
                      Research and Test Reactor Licensee Unexpectedly high dose rates                    NRR
                      Medical Use Licensee                             No radiation safety officer and   Region I
                                                                       broken lock
                      Fuel Cycle Facility Licensee                     Unacceptable enriched             Region II
                                                                       uranium configuration
                      Certificate of Compliance Holder                 Waste transportation drum         NMSS
                                                                       performance
                      Real Estate Company Non-                         Unlicensed tritium found in       Region II
                      Licensee in Possession of Materials              building
                     Source: OIG analysis of agency-provided documentation



                     Weaknesses in NRC’s CAL guidance and compliance with the guidance exists
                     because NRC currently does not have a centralized control point for oversight and
                     implementation of an effective agencywide CAL process to include holding program
                     and regional offices accountable for following CAL guidance. If the agency had a
                     centralized control point, it would be able to, among other things:

                     •	 A
                         ssess and update the Policy, the Manual, and other associated guidance
                        to ensure that NRC’s approach for utilizing CALs is consistent, effective,
                        and efficient. With authority over guidance, a centralized control point would
                        be uniquely positioned to serve as a resource for program and regional offices
                        issuing CALs. Even though no such control point currently exists at NRC, some
                        program and regional office points-of-contact were under the impression that
                        OE was already fulfilling this role to offer clarification of guidance and track their
                        CALs.

                     •	 C
                         onduct periodic CAL audits that verify compliance with CAL policies
                        and procedures. In fact, in 2004, OE conducted an audit of agencywide CALs
                        and found some tracking and numbering issues similar to those described in this
                        OIG report. Yet, without being designated as a clear agencywide control point for
                        CALs, the office lacked leverage to encourage the changes and lost institutional
                        memory that it had conducted the audit.

                     •	 I mplement a comprehensive, agencywide CAL tracking system. Doing so
                         would eliminate the confusion over numbering schemes and sequences, and help
                         to ensure agency staff and management awareness of the status of open CALs.

                     Without a centralized control point for oversight of the CAL process, NRC may
                     be missing opportunities to effectively use CALs for potential CAL recipients not
                     identified in current guidance and to efficiently track and trend CALs.

                     (Addresses Management and Performance Challenge #3)



24   NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Management of the Baseline Security
Inspection Program
OIG Strategic Goal: Security
NRC’s baseline security inspection program
is the agency’s primary means for ensuring
that nuclear power plants across the United
States are protected in accordance with Federal
Government regulations.9 Specifically, the
baseline security inspection program has six
objectives:

•	 T
    o gather sufficient, factual information to
   determine with high assurance if a licensee’s
   security system and material control and
   accounting program10 can protect against
   radiological sabotage, and the theft or loss
   of special nuclear material.
                                                                                                                              Security Barriers at a
                                                                                                                              Nuclear Power Plant.	
•	 T
    o determine a licensee’s ability to identify, assess, and correct security issues in                                     Source: NRC
   proportion with the significance of these issues.

•	 T
    o determine if licensees, working with external agencies, are capable of deterring
   and protecting against the Design Basis Threat.11

•	 T
    o validate performance indicator data, which NRC uses in conjunction with
   inspection findings to assess the security performance of power reactor licensees.

•	 To help NRC monitor plants’ security status and conditions.

•	 T
    o identify significant issues that may have generic or crosscutting applicability to
   the safe and secure operation of licensees’ facilities.

To meet these objectives, NRC conducts routine inspections at nuclear power plants
that focus on specific issue areas such as access controls, protective strategy, security
training, and safeguards information (SGI) controls.12

9
     hapter 10 Part 73, of the Code of Federal Regulations (10 CFR 73) establishes security regulations for operating
    C
    nuclear power plants.
10
      he basic objective of material control and accounting is to prevent the loss or misuse of Special Nuclear Material
     T
     (i.e., enriched uranium or plutonium).
11
      he Design Basis Threat describes the capabilities of adversaries, such as terrorist groups, that could attack a
     T
     nuclear power plant. The Design Basis Threat is based on classified and other sensitive information, and NRC
     revises it periodically to reflect current security issues. An unclassified version appears in 10 CFR 73.1(a).
12
      GI is defined as information, the disclosure of which could reasonably be expected to have a significant adverse
     S
     effect on the health and safety of the public and/or the common defense and security by significantly increasing the
     likelihood of theft, diversion, or sabotage of material or facilities subject to NRC jurisdiction. This information is
     not classified as National Security Information or Restricted Data.



                                                                                                      October 1, 2011–March 31, 2012              25
                     The Significance Determination Process (SDP) is the process by which NRC staff
                     assess the risks and potential effects of inspection findings. In following the SDP,
                     NRC staff systematically analyze apparent violations and characterize them under the
                     following color-code scheme:

                     •	 Green = Very low safety significance.

                     •	 White = Low to moderate safety significance.

                     •	 Yellow = Substantial safety significance.

                     •	 Red = High safety significance.

                     NRC staff closed Green findings in their inspection reports without additional
                     analysis, but White, Yellow, and Red findings require more in-depth analysis using
                     SDP assessment tools. Since 2004, NRC has created several assessment tools
                     (Physical Protection, Material Control and Accounting of Radiological Materials,
                     Unsecured Safeguards Information, Significance Screen, Force-on-Force Exercise
                     Performance) for different types of security violations. Correct and consistent
                     application of SDP assessment tools is essential to the Reactor Oversight Process
                     (ROP), which is NRC’s framework for regulating the nuclear power industry. The
                     ROP, which is based on principles of risk-informed decisionmaking and transparency,
                     categorizes NRC’s oversight activities into seven distinct “cornerstones” of safe
                     operation, one of which is physical protection.

                     The audit objective was to evaluate NRC’s management of the baseline security
                     inspection program, including specific program features such as the Significance
                     Determination Process.

                     Audit Results:
                     NRC has appropriate management controls to ensure the baseline security inspection
                     program meets its objectives. However, a more systematic approach to analyzing
                     security findings data beyond the regional level can help NRC staff better identify
                     licensee performance trends. Further, periodic reviews of SDP assessment tools and
                     systematic testing of new and revised SDP assessment tools can help staff apply SDP
                     assessment tools in a more transparent and consistent manner.

                     NRC Does Not Perform Systematic Cross-Regional or Cross-Fleet Analysis of
                     Security Trends

                     NRC maintains and uses multiple information sources to monitor plant performance,
                     but managers do not perform systematic analysis to assess trends across NRC regions
                     or licensee fleets.13 This occurs because NRC does not perform trend analysis across
                     regions and fleets as program management emphasizes analysis of individual plant
                     performance, and trends within each of the four regions. Additionally, NRC does not
                     actively maintain and manage a centralized database for analyzing security inspection


                     13
                           fleet refers to a group of nuclear power plants operated by one licensee. Plants belonging to a licensee’s fleet can
                          A
                          be located in one or more NRC regions.


26   NRC Office of the Inspector General Semiannual Report to Congress
findings across regions and fleets as evidenced by OIG’s analysis of NRC’s current
information sources. Further, two of the data systems NRC headquarters staff use to
access information may not be complete or accurate.

Despite the lack of trending across regions and fleets, OIG found no material adverse
effect on NRC operations. However, NRC may miss opportunities to improve
monitoring and management of security issues, inspection tools and procedures, and
program results. Additionally, improved data management and analysis can help NRC
staff identify trends that merit additional oversight or regulatory emphasis. This,
in turn, can give NRC greater assurance that the inspection program is meeting its
objective to conduct fact-based assessments of licensee security program performance.  

NRC Lacks Consensus on Content and Application of SGI and Significance
Screen Tools

The ROP sets general standards for NRC’s oversight of power reactors, and
emphasizes objectivity, transparency, and consistency in NRC’s assessments of licensee
performance. NRC staff and industry representatives expressed concern about the
technical basis and application of the Safeguards Information and Significance Screen
tools. Although NRC solicited staff comments in developing these assessment tools,
NRC did not test draft versions of the tools and, further, does not have procedures for
systematically reviewing SDP assessment tools on a periodic basis. Staff consensus
and understanding of SDP assessment tools is critical to ensuring that staff can apply
these tools in accordance with ROP standards and avoid undue resource burdens on
NRC and licensees.

(Addresses Management and Performance Challenge #1)



Audits In Progress
Audit of NRC’s Process for Evaluating the Relevance of
Inspections, Tests, Analyses, and Acceptance Criteria
OIG Strategic Goal: Safety
When licensing a plant under 10 CFR 52 (Licenses, Certifications, And Approvals
For Nuclear Power Plants), NRC is required to verify, within the combined license
application, the inspections, tests, analyses, and acceptance criteria (ITAAC) that,
if met, are sufficient to provide reasonable assurance that the facility has been
constructed and will be operated in conformity with the license, the provisions of the
Atomic Energy Act, and the Commission’s rules and regulations.

Prior to the implementation of 10 CFR 52, the agency identified the ITAACs needed
to issue an operating license for new nuclear power facilities. NRC staff have taken
steps to implement an ITAAC review and closure process, to include developing
some guidance and tracking tools. As such, the agency’s overall readiness to track,
inspect, and assess ITAACs in order to make its licensing decisions is paramount.



                                                                       October 1, 2011–March 31, 2012   27
                       The audit objective is to assess NRC’s regulatory approach, through the ITAAC
                       review process, to ensure that new nuclear power plants have been constructed and
                       will be operated in conformity with the license, the provisions of the Atomic Energy
                       Act, and the Commission’s rules and regulations.

                       (Addresses Management and Performance Challenge #3)



                       Audit of NRC’s Management of Import/Export Authorizations
                       OIG Strategic Goal: Security
                       The Atomic Energy Act of 1954, as amended, assigns to NRC responsibility for
                       licensing imports and/or exports of specified nuclear materials and equipment.
                       10 CFR 110 (Export and Import of Nuclear Equipment and Material) contains the
                       regulations that prescribe licensing procedures. NRC coordinates with other
                       executive branch agencies, such as the Department of State and the Department of
                       Energy, in reviewing the license applications.

                       NRC processed approximately 143 import/export licenses during FY 2009, and
                       approximately 104 during FY 2010, as of August 9, 2010.

                       The audit objectives are to determine whether NRC (1) properly reviews and
                       approves import/export authorizations in a timely manner, (2) effectively coordinates
                       this activity with other Federal agencies, and (3) efficiently and effectively
                       coordinates import/export authorizations internally.

                       (Addresses Management and Performance Challenge #1)



                       Audit of NRC’s Oversight of Radiography Sources
                       OIG Strategic Goal: Safety
                                Radiography uses radiation to create images of an object, especially the
                                internal features of an object. Industrial radiography enables detection
                                of internal physical imperfections such as voids, cracks, and flaws. It is
                                frequently used for visualization of inaccessible internal parts in order
                                to check their location or condition and is extensively applied wherever
                                internally sound metallic components are required.

                                Each year radiography cameras sources are lost, stolen, or abandoned.
                                These sources are of great concern because they are usually made from
Radiography camera.	
Source: NRC
                       Cobalt 60 or other highly radioactive material that can be lethal even in small
                       amounts. For example, 1 gram of Cobalt 60 will cause a lethal exposure to anyone
                       exposed for 1 hour or more at 1 meter or closer.




28     NRC Office of the Inspector General Semiannual Report to Congress
The audit objective is to determine the adequacy of NRC’s processes for overseeing
licensee activities addressing the safety and control of radiography sources.

(Addresses Management and Performance Challenge #1)



Audit of NRC’s Protection of Safeguards Information
OIG Strategic Goal: Security
Safeguards information (SGI) is defined as information, the disclosure of which could
reasonably be expected to have a significant adverse effect on public health and safety
and/or the common defense and security by significantly increasing the likelihood
of theft, diversion, or sabotage of materials or facilities subject to NRC jurisdiction.
Further, SGI identifies the detailed (1) security measures of a licensee or an applicant
for the physical protection of special nuclear materials, or (2) security measures for
the physical protection and location of certain plant equipment vital to the safety of
production or utilization facilities.

NRC established its SGI Security Program to ensure that this information is handled
appropriately and protected from unauthorized disclosure. In accordance with the
Atomic Energy Act of 1954 as amended, civil and criminal penalties can be levied
for the unauthorized disclosure of safeguards information. The requirements of
NRC’s program are described in Management Directive and Handbook 12.7, NRC
Safeguards Information Security Program.

The audit objectives are to assess if NRC adequately (1) ensures the protection
of safeguards information, (2) prevents the inappropriate release of safeguards
information to individuals who should not have access, (3) defines what constitutes
safeguards information, and (4) conforms to agency policy directions.

(Addresses Management and Performance Challenges #2 and #5)



Audit of NRC’s General Licensing Program
OIG Strategic Goal: Safety
General license devices typically consist of radioactive material contained
within a shielded device such as fixed gauging devices, static eliminators, and gas
chromatographs. The purchasers of the devices are known as “general licensees”
and they do not need authorization from NRC or a State regulatory agency to
possess the devices. However, generally licensed devices do contain radioactive
material and are subject to regulatory requirements regarding handling, transfer, and
disposal. These regulations are in place because if the source is damaged or broken,
it could cause radioactive contamination of an immediate area requiring a potentially
expensive cleanup.


                                                                        October 1, 2011–March 31, 2012   29
                     NRC is responsible for implementing an annual registration program for certain
                     general licensees, and facilitating enhanced oversight, tracking, and accountability of
                     these general licensees and general licensed devices. NRC uses the General License
                     Tracking System to fulfill this obligation.

                     The audit objective is to determine if NRC’s General Licensing Program provides
                     for the necessary accountability and tracking of generally licensed devices to protect
                     public health and safety.

                     (Addresses Management and Performance Challenge #1)



                     Audit of NRC’s Issuance of General Licenses
                     OIG Strategic Goal: Safety
                     NRC considers general licensed devices to be inherently safe, so no radiation training
                     or experience is required to operate the devices. Consequently, the general license
                     simplifies the licensing process.

                     In 2004, the International Atomic Energy Agency (IAEA) issued the Code of Conduct
                     on the Safety and Security of Radioactive Sources, in part, to protect individuals, society,
                     and the environment from the harmful effects of possible accidents and malicious
                     acts involving radioactive sources. The Code of Conduct categorizes radionuclides
                     by activity level. The IAEA defines Categories 1, 2, and 3 as varying degrees of
                     dangerous, while Categories 4 and 5 are considered unlikely to be dangerous.

                     The audit objective is to determine if NRC issues general licenses for only inherently
                     safe nuclear materials.

                     (Addresses Management and Performance Challenge #1)



                     Audit of NRC’s Budget Execution Process
                     OIG Strategic Goal: Corporate Management
                     The Federal budget execution process involves activities related to the use of funds
                     appropriated by Congress. This includes the detailed planning of the use of the
                     funds as well as the control of their use to assure that congressional intent for the
                     use of the funds is preserved. During this process, the NRC Chairman, Chief
                     Financial Officer, allottees, allowance holders, allowance financial managers, and
                     funds certifying officials all share responsibilities for ensuring effective financial
                     management concerning the proper administrative control of funds. NRC’s
                     managers must ensure that public funds are used only for authorized purposes, and
                     that the funds are used economically, efficiently, and within prescribed limits.



30   NRC Office of the Inspector General Semiannual Report to Congress
NRC guidance mandates that agency systems for budget execution and the
administrative control of funds adhere to policies, procedures, and standards
found in management directives (e.g., 4.2, Administrative Control of Funds); OMB
A-34, Instructions on Budget Execution; as well as other applicable Federal laws and
regulations. The Office of the Chief Financial Officer is responsible for the overall
control of funds during budget execution. NRC’s budget request for FY 2012 is
approximately $1.038 billion and 3,981 full-time equivalents.

The audit objectives are to determine whether (1) NRC maintains proper
financial control over the allotment, allocation, and obligation of appropriated and
apportioned funds to ensure compliance with applicable Federal laws, policies, and
regulations, and (2) opportunities exist to improve the budget execution process.

(Addresses Management and Performance Challenge #6)



Audit of NRC’s Travel Charge Card Program
OIG Strategic Goal: Corporate Management
NRC’s Travel Charge Card Program is part of the Governmentwide Commercial
Charge Card Program established to pay the official travel expenses of employees
while on temporary duty or other official business travel. The program’s intent
is to improve convenience for the traveler and reduce the Government’s costs of
administering travel. OMB has issued guidance that establishes requirements
(including internal controls designed to minimize the risk of travel card misuse) and
suggested best practices for the Government travel card programs.

During FY 2011, 2,613 NRC employees charged approximately $8.8 million on
travel charge cards, primarily issued to employees as individually billed accounts.
Travel cardholders are directly responsible for all charges incurred on their account.

The Office of the Chief Financial Officer administers NRC’s travel charge card
program and controls the use of agency funds to ensure that they are expended in
accordance with applicable laws and regulations.

The audit objective is to assess whether NRC’s policies and procedures are effective
in preventing and detecting travel charge card misuse and delinquencies.

(Addresses Management and Performance Challenge #6)




                                                                       October 1, 2011–March 31, 2012   31
                    Audit of NRC’s Implementation and Use of Orders
                    OIG Strategic Goal: Safety
                    Orders can be used to modify, suspend, or revoke licenses or require specific actions
                    by licensees or other persons. Orders can also be used to impose civil penalties. The
                    Commission’s order issuing authority under Section 161 of the Atomic Energy Act,
                    as amended, is broad and extends to any area of licensed activity that the Commission
                    deems necessary to promote the common defense and security or to protect health or
                    to minimize danger to life or property. In addition, orders may be issued to persons
                    who are not themselves licensed. This would include vendors and contractors
                    (and employees) when (1) the NRC has identified deliberate misconduct that may
                    cause a licensee to be in violation of an NRC requirement, (2) where incomplete
                    or inaccurate information is deliberately submitted, or (3) where the NRC loses its
                    reasonable assurance that the licensee will meet NRC requirements with that person
                    involved in licensed activities.

                    A number of NRC program offices and the regions propose and prepare the
                    various types of orders. Multiple offices are also involved in the agency’s order
                    implementation process, including legal adjudication, Federal Register notification,
                    issuance of press releases, and the conduct of inspections that verify completion of
                    the actions identified in the order.

                    The audit objective is to evaluate NRC’s implementation and use of orders.

                    (Addresses Management and Performance Challenge #1)



                    Audit of NRC’s FY 2012 Financial Statements
                    OIG Strategic Goal: Corporate Management
                    Under the Chief Financial Officers Act and the Government Management and
                    Reform Act, OIG is required to audit the financial statements of the NRC. The
                    report on the audit of the agency’s financial statements is due on November 15, 2012.
                    In addition, OIG will issue reports on:

                    •	 Special Purpose Financial Statements.

                    •	 Implementation of the Federal Managers’ Financial Integrity Act.

                    •	 Condensed Financial Statements.

                    •	 Compliance with the Improper Payments Elimination and Recovery Act of 2010.

                    The audit objectives are to:

                    •	 Express opinions on the agency’s financial statements and internal controls.


32   NRC Office of the Inspector General Semiannual Report to Congress
•	 Review compliance with applicable laws and regulations.

•	 R
    eview the controls in the NRC’s computer systems that are significant to the
   financial statements.

•	 A
    ssess the agency’s compliance with OMB Circular A-123, Revised,
   Management’s Responsibility for Internal Control.

•	 A
    ssess agency compliance with the Improper Payments Elimination and
   Recovery Act of 2010.

(Addresses Management and Performance Challenge #6)



Survey of NRC’s Safety Culture and Climate
OIG Strategic Goal: Corporate Management
In 1998, 2002, 2006, and 2009, OIG contracted with an international survey firm
to conduct surveys that evaluated the organizational safety culture and climate
of the agency’s workforce and identified agency strengths and opportunities for
improvements. Comparisons were made to the previous surveys as well as to national
and Government norms. In response to the survey results, the agency evaluated the
key areas for improvement and developed strategies for addressing them.

A clear understanding of NRC’s current safety culture and climate will facilitate
identification of agency strengths and opportunities as it continues to experience
significant challenges. These challenges include the licensing of new nuclear
facilities, disposal of high-level waste, the loss of valuable experience from
retirements, operating under continuing resolutions, smaller budgets, and legislation
that froze Federal civilian employee pay rates.

Through these surveys, OIG gained a thorough understanding of NRC’s
organizational safety culture and climate as perceived by employees. This
information is useful to the OIG in programming future work.

The survey objectives are to:

•	 M
    easure NRC’s safety culture and climate to identify areas of strength and
   opportunities for improvement.

•	 C
    ompare and analyze the results of this survey against the survey results that
   OIG reported previously.

•	 P
    rovide comparative analysis of NRC qualitative and quantitative survey findings
   against those of other organizations.

(Addresses Management and Performance Challenge #7)


                                                                       October 1, 2011–March 31, 2012   33
                    Audit of NRC’s Progress in Reforming Information Technology
                    Management
                    OIG Strategic Goal: Corporate Management
                    In December 2010, the U.S. Chief Information Officer (CIO) issued the
                    “25 Point Implementation Plan to Reform Federal Information Technology
                    Management.” This guidance directs OMB and Federal agencies to undertake a
                    variety of management reforms for more efficient – and thus, cost-effective – use of
                    information technology (IT) investments.

                    The U.S. CIO created this guidance through engagements with Federal agency staff,
                    Congress, private industry, and academia, and aimed to identify practical solutions
                    to IT management problems.  To that end, the “25 Point Plan” emphasizes near-
                    term procedural fixes that may promote longer-term reforms.  Consequently, the
                    “25 Point Plan” is divided into two sections: (1) Achieving Operational Efficiency,
                    and (2) Managing Large-Scale IT Programs Effectively.  The former focuses on
                    cloud computing and shared services at the agency level, while the latter focuses on
                    structural changes that could improve IT programs across the Federal Government.

                    For each of its 25 points, the U.S. CIO’s guidance assigns implementation
                    responsibility to some combination of OMB, CIO and Chief Financial Officer
                    Councils, specific agencies with unique missions, and all executive branch agencies.
                    NRC is thus involved in some action items, such as #3, “Shift to a cloud-first policy.”  
                    However, action items such as #5, “Stand up contract vehicles for ‘commodity’
                    services” (which belongs to the General Services Administration), fall outside NRC’s
                    purview. Lastly, all action items have implementation milestones ranging from 6
                    to 18 months. Given the “25 Point Plan” release date, NRC staff should be able to
                    discuss their efforts to achieve shorter-term action items due for completion before
                    January 2012.  Longer-term action items should be completed or nearing completion
                    by July 2012.

                    The audit objective is to assess NRC’s progress in executing the President’s “25 Point
                    Implementation Plan to Reform Federal Information Technology Management.”
                    OIG will conduct this work in accordance with the OIG FY 2012 Annual Plan, which
                    includes an audit of NRC’s information technology governance. Given the limited
                    scope of this audit, OIG intends to pursue future audit work focusing on different
                    aspects of information technology governance.

                    (Addresses Management and Performance Challenge #5)




34   NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Process for Calculating License Fees
OIG Strategic Goal: Corporate Management
The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended, requires
that NRC recover, through fees assessed to its applicants and licensees, approximately
90 percent of its budget authority (less amounts appropriated from the Nuclear
Waste Fund, amounts appropriated for Waste Incidental to Reprocessing activities,
and amounts appropriated for generic homeland security activities).

To meet the requirements of OBRA-90, as amended, NRC assesses two types of
fees – user charges and annual fees. First, under the authority of the Independent
Offices Appropriation Act of 1952, NRC assesses user charges to recover costs of
providing special benefits to identifiable applicants and licensees. NRC implements
user charges for inspection services and licensing actions for the reactor and materials
programs under the 10 CFR Part 170. Second, annual fees, established in 10 CFR
Part 171 under the authority of OBRA-90, as amended, recover generic and other
regulatory costs not recovered through 10 CFR Part 170 fees.

On an annual basis, NRC amends the licensing, inspection, and annual fees. NRC
publishes the annual Fee Rule in the Federal Register.

The audit objective is to determine if NRC has established and implemented
management controls to ensure that the license fee calculation process produces
timely and accurate fees in accordance with applicable requirements.

(Addresses Management and Performance Challenge #6)




                                                                        October 1, 2011–March 31, 2012   35
Investigations
                     During this reporting period, OIG received 119 allegations, opened 30 investigations,
                     and closed 30 cases. In addition, the OIG made 17 referrals to NRC management and 9
                     to the Department of Justice.

                     INVESTIGATIVE CASE SUMMARIES
                     Release of Predecisional Information Regarding Commission
                     Comsecy Vote
                     OIG Strategic Goal: Corporate Management
                     OIG conducted an investigation into an allegation that sensitive information
                     concerning the outcome of a non-public Commission vote was leaked to the office
                     of U.S. Senator Bernard Sanders (VT). The vote pertained to a “Statement of
                     Interest” matter (i.e., pre-empted by Federal law) by the Department of Justice
                     (DOJ) in a lawsuit filed by Entergy Nuclear against the State of Vermont.

                     Between June 9 and June 15, 2011, the NRC Chairman and Commissioners
                     cast their votes on COMSECY-11-0009 – Energy Nuclear Vermont Yankee,
                     LLC v.  Shumlin, No.11-CV-99 (D.  Vermont).  This COMSECY14 had been
                     provided to the Commission on June 7, 2011, subsequent to a June 6, 2011, time-
                     sensitive request from DOJ. The purpose of the COMSECY was to request the
                     Commission’s views on whether to support the filing of a U.S. “Statement of
                     Interest” in the lawsuit. The lawsuit invoked Federal preemption doctrine and
                     sought to enjoin Vermont from using its “certificate-of-public-good” law to shut
                     down the Vermont Yankee nuclear plant when the plant’s original license term
                     expired in March 2012.  COMSECY-11-0009 communicated two options to the
                     Commission. Option A supported the filing of a “Statement of Interest” by the
                     DOJ on the Federal preemption issue, and Option B did not support such a filing at
                     the current time.

                     In accordance with Commission voting procedures, each Commission member
                     submitted his or her vote to the Office of the Secretary by e-mail with copies to
                     the other Commission members’ offices and program office staff with a need-
                     to-know.  In this case, approximately 45 employees in the various Commission
                     offices, Office of the Secretary, Office of the General Counsel, and Office of
                     Commission Appellate Adjudication received e-mails from the Chairman’s and each
                     Commissioner’s office with his or her vote.

                     On June 15, 2011, the Chairman’s legal counsel sent an e-mail with suggested
                     language for NRC’s response to DOJ to the same recipients who had previously
                     received e-mails on the individual votes.  The legal counsel’s e-mail provided the
                     final 3 to 2 vote tally and a breakout of how each Commissioner voted.

                     NRC’s Solicitor informed DOJ in a June 15, 2011, letter that NRC supported
                     the filing of a “Statement of Interest.” This letter stated only that “we” (NRC)

                     14
                          A COMSECY, or Commission Action Memorandum, is a type of document used for Commission decisionmaking.


36   NRC Office of the Inspector General Semiannual Report to Congress
support filing a statement of interest by the United States on Federal preemption.
The letter did not indicate how each Commission member voted on the matter or
provide the vote tally.

OIG learned that Senator Sanders’ Senior Legislative Assistant called the Office of
Congressional Affairs on June 15, 2011, to inquire about the vote outcome. The
Senior Legislative Assistant also called each Commissioner’s office to ask how each
Commissioner voted and told one Commissioner’s Chief of Staff that he knew the
overall vote was 3 to 2. The Senior Legislative Assistant also called the Chairman’s
office on or about June 15, 2011, to ask about the Chairman’s position.

OIG was unable to determine if someone from NRC provided Senator Sanders’
office with the Commission vote on COMSECY-11-0009 or how Senator Sanders’
staff learned about the vote tally. Senator Sanders’ office declined OIG’s request to
interview the Senator’s Senior Legislative Assistant with regard to this investigation.

(Addresses Management and Performance Challenge #2)



Harassing E-Mail Sent to NRC Chairman’s Office
OIG Strategic Goal: Security
OIG conducted an investigation into an allegation from the NRC Division
of Facilities and Security that on July 6, 2011, an e-mail was sent to the NRC
Chairman’s Resource e-mail account containing harassing language that rises to the
level of character defamation concerning the NRC Chairman.  The e-mail was sent
from a “hotmail” account.

OIG identified the sender of the e-mail to the NRC Chairman.  The individual was
an unemployed man with mental health issues from the State of Washington. OIG
coordinated this investigation with local law enforcement officials and prosecutors
in Washington State who said the individual’s mental health issues would be
addressed during his upcoming prosecution proceedings for local crimes.

(Addresses Management and Performance Challenge #7)



Possible Cost Mischarging by NRC Contractor
OIG Strategic Goal: Corporate Management
OIG conducted an investigation based on an allegation from Division of Contracts
(DC) staff that an NRC contractor had submitted questionable invoices to NRC
for certain task orders on an information technology support contract. The
questionable invoices contained overtime hours, which according to DC staff,
required preapproval by the NRC. The NRC had not authorized the contractor


                                                                       October 1, 2011–March 31, 2012   37
                     employees to work overtime hours.  The contract was an indefinite-quantity
                     contract with a period of performance from September 26, 2007, through
                     September 25, 2008, with two option periods totaling $47,099,350.66. In addition
                     the contract was extended after the option periods for 2 more years. Funding is
                     obligated under 30 individual task orders.

                     OIG’s review of invoices submitted by the contractor to NRC for the period of
                     September 2007 through September 2010 found that contractor employees had
                     recorded overtime hours; however, there was no overtime charged or billed to the
                     NRC. The contractor employees who worked more than 40 hours per week were
                     storing these work hours. The stored hours were later used as compensatory time
                     off; however, when the compensatory time off was actually taken (using the stored
                     hours), the invoice submitted to NRC incorrectly reflected that the employee was
                     working.

                     OIG found that the NRC contract did not stipulate a cap on hours worked per task
                     order per billing cycle or state that the contractor employees could not exceed 80
                     hours worked biweekly. In addition, the contract did not require preapproval for
                     extra hours worked at regular pay rates.

                     An NRC Project Manager (PM) verified that the work was performed by the
                     contractor employees and that it was well documented. However, the PM’s concern
                     was that NRC could not tell when contractor-employees were working or taking
                     compensatory time, and that compensatory time was being reported on invoices as
                     work performed for that week when it was actually performed during a prior week.

                     An OGC attorney stated that the NRC contract and statement of work were poorly
                     written, which created challenges for NRC. He advised that the contractor did not
                     charge NRC any overtime rates on the contract. If the NRC manager had work to
                     be performed and the contractor employees elected to work past their shifts without
                     claiming overtime rates, it was a cost savings for NRC. Administratively, the OGC
                     would have preferred that the contractor annotate on the invoice when an employee
                     used his or her stored hours. The attorney advised that the contract terminated in
                     January 2012, and the same company was awarded the new contract beginning on
                     January 26, 2012. OGC and DC were structuring the new contract differently and
                     incorporating language, clauses, and requirements that were not in the previous
                     NRC contract. The attorney advised that the new contract as written will eliminate
                     the challenges that NRC had on the previous contact, and would address “stored”
                     hours.

                     The U.S. Attorney’s Office declined to prosecute based on no financial loss to the
                     Government and that the work was satisfactorily performed by the contractor. The
                     NRC declined to take administrative action against the company based on the
                     termination of the contract in January 2012.

                     (Addresses Management and Performance Challenge #6)




38   NRC Office of the Inspector General Semiannual Report to Congress
Alleged Failure to Inspect North Anna Nuclear Power Plant
Unit 1 After Earthquake And Inspection of Unit 2
OIG Strategic Goal: Safety
OIG conducted an investigation into an allegation that NRC’s Region II Regional
Administrator failed to protect public health and safety by not inspecting North
Anna Nuclear Power Plant (North Anna), Unit 1 internals, after it was shut down
due to an August 23, 2011, earthquake centered in Mineral, Virginia.

OIG learned that on August 30, 2011, in accordance with Management Directive
8.3, NRC Incident Investigation Program, NRC dispatched an Augmented Inspection
Team (AIT) to North Anna to better understand the event and the licensee’s
response after the August 23, 2011, earthquake. Using guidance provided in
Regulatory Guide 1.167, Restart of a Nuclear Power Plant Shut Down by a Seismic
Event, the AIT concluded that the licensee performed adequate inspections, walk
downs, and testing to ensure that safety related structures, systems, and components
for Units 1 and 2 at North Anna had not been adversely affected by the earthquake.

In September 2011, the licensee submitted to NRC a restart readiness plan for
returning North Anna to service. This plan included an evaluation and inspection
of North Anna Units 1 and 2. NRC staff assessed the licensee’s completed
evaluation and inspection and concluded that no functional damage occurred to
either of the reactor vessels internals such that, “The resumption of plant operations
would not result in undue risk to the health and safety of the public.”

OIG reviewed NRC technical evaluation, dated November 11, 2011, of the North
Anna Units 1 and 2 regarding the restart of North Anna following the earthquake.
The technical evaluation documented NRC inspection activities and conclusions
supporting NRC’s decision to allow North Anna to restart to include a conclusion
regarding the functionality of the reactor vessel internals. The technical evaluation
explained in detail the inspection activities at both Units 1 and 2. The technical
evaluation also explained why certain inspection results of Unit 2 would be
representative of the findings for Unit 1. As authorized by Regulatory Guide 1.167,
the Director of NRC’s Office of Nuclear Reactor Regulation (NRR) determined
that North Anna could be operated safely.

OIG did not substantiate that NRC failed to protect public health and safety
following the August 23, 2011, earthquake near the North Anna. OIG found
that NRC headquarters dispatched an AIT to North Anna following the August
23, 2011, earthquake. The decision to restart North Anna was not the Region II
Regional Administrator’s responsibility. On November 11, 2011, the NRR Director
declared North Anna safe to restart after confirming regulatory requirements
were met.

(Addresses Management and Performance Challenge #1)




                                                                      October 1, 2011–March 31, 2012   39
                  Alleged NRC Grant Fraud by City College of New York Professor
                  OIG Strategic Goal: Corporate Management
                  OIG initiated this investigation based on an allegation that the principal investigator
                  (PI) for an NRC education grant awarded to the City College of New York (CCNY),
                  and another CCNY professor, utilized grant funding to travel internationally to attend
                  conferences without prior authorization from NRC.

                  OIG reviewed the grant file and learned that NRC awarded $450,000 to CCNY for
                  the development of a Nuclear Thermal-Hydraulics and Safety Research program at
                  the college for a 3-year period beginning July 1, 2009.  OIG also learned the PI and
                  another CCNY professor used grant money to travel internationally in connection
                  with the grant.

                  An NRC senior contract specialist, knowledgeable about the CCNY grant, informed
                  OIG that CCNY staff’s international travel was in accordance with applicable
                  requirements in 2 CFR Part 220 (Cost Principles for Educational Institutions) which
                  makes no mention of “prior approval” for domestic or foreign travel. OIG also found
                  the CCNY staff’s travel was in accordance with NRC Terms and Conditions for
                  international air travel and transportation. The CCNY staff met this requirement by
                  including in its grant budget justification information about the trips planned, and
                  receiving budget approval from NRC.

                  OIG determined that the CCNY staff used NRC grant funding to conduct
                  international travel related to the grant in accordance with applicable requirements in
                  2 CFR Part 220 and with NRC Terms and Conditions for international air travel.

                  (Addresses Management and Performance Challenge #6)



                  Possible Violation of 10 CFR 2.206
                  OIG Strategic Goal: Safety
                  OIG conducted an investigation based on a referral from the Division of Waste
                  Management and Environmental Protection, NRC, relating to a 10 CFR 2.206
                  petition filed by a resident of Hawaii. The alleger requested that NRC take action
                  against the U.S. Army for violating an NRC material source license. The allegation
                  was that the U.S. Army potentially violated the law after its license expired in handling
                  and disposing of depleted uranium (DU) for spotting rounds used for the Davy
                  Crockett weapons system.

                  OIG determined the U.S. Army notified the NRC in the summer of 2006 and again
                  in November 2006 of separate incidents whereby DU fragments were found on firing
                  ranges at Schofield Barracks, Hawaii. Since the notifications, the U.S. Army applied
                  for a materials license with the NRC in an attempt to properly resolve the DU matter.
                  The investigation determined the U.S. Army was licensed from 1961 to 1978 to



40   NRC Office of the Inspector General Semiannual Report to Congress
possess the material. However, when the license expired, the U.S. Army was no
longer subject to NRC policies or regulations. At the time the license was approved
by the Atomic Energy Commission (AEC), it was of no concern that the U.S. Army
was leaving expended DU on the firing ranges because such practice was considered
to involve insignificant levels of radioactivity. Further, documentation reviewed in
support of this investigation revealed that in April 1969, the AEC authorized the
U.S. Army to dispose of 44,000 spotting rounds at sea.

In March 2010, the alleger’s 10 CFR 2.206 petition was granted in part. The
NRC determined that the U.S. Army was in violation of 10 CFR 40.3 because it
was in possession of licensable quantities of DU at several installations without
authorization through a specific license issued by the NRC. Subsequently, the NRC
issued a Severity Level III notice of violation to the U.S. Army. The NRC stated in
the notice of violation that the corrective actions taken by the U.S. Army and those
planned were sufficient to prevent recurrence and no monetary penalty was assessed.

On October 29, 2011, the NRC issued a final decision and accepted the U.S.
Army’s course of action without further enforcement. The Army’s corrective
actions included the submission of a license application and the implementation of
measures to ensure access and control of areas suspected to contain DU.

(Addresses Management and Performance Challenge #4)



Improper Handling of Personally Identifiable Information by
iLearn Contractor
OIG Strategic Goal: Security
OIG initiated an investigation based on notification from NRC’s Computer
Security Office of a possible leak of NRC employees’ Personally Identifiable
Information (PII) in an e-mail sent from Office of Personnel Management’s (OPM)
training provider, which manages the NRC’s learning management system known
as iLearn. NRC uses the OPM training provider to manage iLearn as part of OMB
requirement that all agencies use one of five authorized certified training providers
to track Federal employee training.  The e-mail in question was sent to three NRC
employees located in the Office of Human Resources and one training provider
contractor employee.

OIG found that the training provider mishandled NRC employee PII by sending
it in clear text as an attachment to a regular e-mail.  Upon notification of the PII
transmittal by an NRC employee, the training provider coordinated with OPM to
remove all remnants of the e-mail, the attachment, and all documents used to create
the attachment.

The training provider also implemented steps to prevent this from happening
in the future and promised to re-educate its employees regarding handling and
transporting of PII via secure transfer methods.



                                                                      October 1, 2011–March 31, 2012   41
                     OIG also found that NRC’s task order with OPM does not adequately address the
                     retention and destruction of NRC employee PII used by the training provider to
                     update the training database. This shortcoming put the agency at risk of having old
                     sets of PII in the possession of OPM’s contractor for inadvertent misuse.

                     This investigation did not find any criminal misconduct with regard to the
                     allegation but identified a shortcoming in NRC’s contractual arrangement that
                     required the training provider to provide NRC employee PII to OPM, to meet
                     the training documentation requirement under OPM’s e-Government initiative,
                     Enterprise Human Resources Integration.

                     (Addresses Management and Performance Challenge #5)




42   NRC Office of the Inspector General Semiannual Report to Congress
     Summary of OIG Accomplishments
     October 1, 2011, through March 31, 2012



     INVESTIGATIVE STATISTICS
     Source of Allegations

                   NRC Employee                                                                              49

                NRC Management                 3

        Other Government Agency            2

                    General Public                                         25

           OIG Investigation/Audit     1

                           Projects                          8

                Regulated Industry                 4

                       Anonymous                                       22

                        Contractor         2

                        Intervenor             3

                                       Allegations resulting from Hotline Program: 47
                                                                           Total: 119



     Disposition of Allegations—October 1, 2011, through March 31, 2012

                              Total                                                                          119

             Closed Administratively                                  53

     Referred for OIG Investigation                              29

Referred to NRC Management and Staff                        17

             Pending Review Action             7

         Correlated to Existing Case                   10

             Referred to OIG Audit      1

           Referred to Other Agency        2




                                                                            October 1, 2011–March 31, 2012   43
                     Status of Investigations

                     DOJ Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                     DOJ Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  9
                     DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
                     DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6
                     Sentencing .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                     NRC Administrative Actions:
                     	       Terminations and Resignations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
                     	       Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                     	Counseling .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                     	Recoveries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                     	Other  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  3
                     State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                     State Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                     State Accepted .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                     PFCRA18 Referral  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                     PFCRA Acceptance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                     PFCRA Recovery  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                     PFCRA Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1

                     Summary of Investigations
                     Classification of 		           Opened 	 Closed 	 Cases in
                     Investigations	     Carryover	 Cases	   Cases	 Progress

                     Conflict of Interest	                                              0	                 1	               0	              1
                     Employee Misconduct 	                                            23	                14	              17	             20
                     Event Inquiry	                                                     1	                 0	               0	              1
                     External Fraud	                                                    6	                 1	               2	              5
                     False Statements	                                                  1	                 0	               0	              1
                     Management Misconduct	                                             2	                 7	               2	              7
                     Miscellaneous	                                                     3	                 3	               2	              4
                     Misuse of Government Property	                                     1	                 0	               1	              0
                     Proactive Initiatives	                                           13	                  2	               4	            11
                     Technical Allegations	                                             0	                 2	               2	              0
                     Theft	                                                             1	                 0	               0	              1
                     		 Grand Total	                                                  51	               30	               30	             51


                     18
                          Program Fraud Civil Remedies Act.



44   NRC Office of the Inspector General Semiannual Report to Congress
AUDIT LISTINGS
Date           Title                                                    Audit Number

10/03/2011	    Evaluation Report:  Inspector General’s Assessment	      OIG-12-A-01
		             of the Most Serious Management and Performance
		             Challenges Facing NRC

11/07/2011	 Independent Evaluation of NRC’s Contract Award 	            OIG-12-A-02
		Process
	
11/09/2011	 Results of the Audit of the United States Nuclear 	         OIG-12-A-03
		          Regulatory Commission’s Financial Statements for
		Fiscal Year 2011

11/09/2011	    Independent Evaluation of NRC’s Implementation of 	 OIG-12-A-04
		             the Federal Information Security Management Act
		             (FISMA) for FY 2011

11/15/2011	 Independent Auditor’s Report on the U.S. Nuclear 	          OIG-12-A-05
	      	    Regulatory Commission’s Special-Purpose Financial
		          Statements as of September 30, 2011, and for the
		Year Then Ended

12/13/2011	    Audit of NRC’s Oversight of Decommissioned Uranium 	 OIG-12-A-06
		             Recovery Sites and Sites Undergoing Decommissioning

01/26/2012	 Memorandum Report:  Audit of NRC’s Implementation 	 OIG-12-A-07
		          of the Federal Managers’ Financial Integrity Act for
		Fiscal Year 2011

02/01/2012	 Independent Auditor’s Report on the Condensed 	             OIG-12-A-08
		Financial Statements

02/10/2012	    Audit of NRC’s Use of Confirmatory Action Letters	       OIG-12-A-09

03/08/2012	 Audit of NRC’s Management of the Baseline Security 	 OIG-12-A-10
		Inspection Program

03/15/2012	    Audit of NRC’s Fiscal Year 2011 Compliance with 	        OIG-12-A-11
		             the Improper Payment Elimination and Recovery
		             Act of 2010




                                                                     October 1, 2011–March 31, 2012   45
Contract Audit Reports
OIG 	           Contractor/Title/	                                  Questioned	   Unsupported
Issued Date	    Contract Number	                                    Costs	        Costs
11/18/2011	     Dade Moeller & Associates	                          0		           0
	               Fiscal Year 2011 Provisional
	               Billing Rates
	               NRC-HQ-11-C-04-0012

03/22/2012	     Southwest Research, Inc. 	                          0		           0
	               Independent Evaluation of Southwest 	
	               Research Institute’s Floor Checks 	
	               (MAAR 6)
	               NRC-02-06-018  
	               NRC-02-06-021  
	               NRC-41-09-011  
	               NRC-03-09-070  
	               NRC-03-10-066  
	               NRC-03-10-070  
	               NRC-03-10-081  
	               NRC-04-10-144  
	               NRC-HQ-11-C-03-0047
	               NRC-HQ-11-C-03-0058

03/22/2012 	    Southwest Research, Inc. 	                          0		           0
	               Independent Follow-up Audit of Two
	               Previously Reported Significant
	               Deficiencies/Material Weaknesses in
	               Southwest Research Institutes’
	               Accounting System
	               NRC-02-06-018  
	               NRC-02-06-021  
	               NRC-41-09-011  
	               NRC-03-09-070  
	               NRC-03-10-066  
	               NRC-03-10-070  
	               NRC-03-10-081  
	               NRC-04-10-144  
	               NRC-HQ-11-C-03-0047
	               NRC-HQ-11-C-03-0058

03/22/2012	     Southwest Research, Inc. 	                          0		           0
	               Independent Report on Audit of
	               Southwest Research Institute’s
	               Fiscal Year 2010 Fringe Burden Rate for
	               Provisional Billing Purposes
	               NRC-02-06-018  
	               NRC-02-06-021  
	               NRC-41-09-011  
	               NRC-03-09-070  
	               NRC-03-10-066  
	               NRC-03-10-070  
	               NRC-03-10-081  
	               NRC-04-10-144  
	               NRC-HQ-11-C-03-0047
	               NRC-HQ-11-C-03-0058

46   NRC Office of the Inspector General Semiannual Report to Congress
Audit Resolution Activities
TABLE I
OIG Reports Containing Questioned Costs15
		                  Questioned	Unsupported
	        Number of	   Costs	      Costs
Reports	  Reports	 (Dollars)	(Dollars)

A. 	 For which no management decision
     had been made by the commencement
     of the reporting period	                                                     0	                           0	            0

B. 	 Which were issued during the reporting
     period	                                                                      0	 0	0

	          Subtotal (A + B)	                                                      0	                           0	            0	

C. 	 For which a management decision was
     made during the reporting period:	

	          (i) dollar value of disallowed costs	                                  0	                           0	            0	

	          (ii) dollar value of costs not disallowed	                             0	                           0	            0	

D. 	 For which no management decision had
     been made by the end of the reporting period	                                0	                           0	            0

E. 	 For which no management decision was
     made within 6 months of issuance	                                            0	                           0	            0




15
      uestioned costs are costs that are questioned by OIG because of an alleged violation of a provision of a law,
     Q
     regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
     of funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a
     finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.



                                                                                                   October 1, 2011–March 31, 2012   47
                   TABLE II
                   OIG Reports Issued with Recommendations
                   That Funds Be Put to Better Use16
                   	                                                                                 Number of	                Dollar Value
                   Reports	                                                                           Reports	                  of Funds

                   A.	        For which no management decision	 0	 0
                              had been made by the commencement
                              of the reporting period			

                   B.	        Which were issued during the 	 0	                                                                        0
                              reporting period		

                   C.	        For which a management decision was	
                              made during the reporting period:		

                   	              (i) 	 dollar value of recommendations	                                    0	                         0
                              	         that were agreed to by management

                   	          (ii) 	 dollar value of recommendations 	                                      0	                         0
                              	      that were not agreed to by management

                   D.	        For which no management decision had	                                         0	                         0
                              been made by the end of the reporting
                              period

                   E.	        For which no management decision was	 0	 0
                              made within 6 months of issuance			
                              	



                   16
                         “recommendation that funds be put to better use” is a recommendation by OIG that funds could be used more
                        A
                        efficiently if NRC management took actions to implement and complete the recommendation, including: reductions
                        in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
                        guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the
                        operations of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews of
                        contract or grant agreements; or any other savings which are specifically identified.




48   NRC Office of the Inspector General Semiannual Report to Congress
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	         Report Title	                                                     Number

05/26/2003	    Audit of NRC’s Regulatory Oversight of Special 	                 OIG-03-A-15	 	
	              Nuclear Materials

	Recommendation 1: Conduct periodic inspections to verify
  that material licensees comply with material control and
  accountability requirements, including, but not
  limited to, visual inspections of licensees’ special nuclear
  material inventories and validation of reported
  information.

9/26/2008	     Audit of NRC’s Enforcement Program	                             OIG-08-A-17

	Recommendation 2: Define systematic data collection
  requirements for non-escalated enforcement actions.

               Recommendation 3: Develop and implement a quality
               assurance process that ensures that collected enforcement
               data is accurate and complete.




                                                                       October 1, 2011–March 31, 2012   49
Abbreviations and Acronyms
AEC 			                  Atomic Energy Commission
ALARA 			                as low as (is) reasonably achievable
AIT			                   Augmented Inspection Team
CAL			                   Confirmatory Action Letter
Carson Associates 	      Richard S. Carson and Associates, Inc.
CCNY			                  City College of New York
CERCLA			                Comprehensive Environmental Response, Compensation and Liability Act
CFR			                   Code of Federal Regulations
CIGIE 			                Council of the Inspectors General on Integrity and Efficiency
CIO			                   U.S. Chief Information Officer
CSO			                   Computer Security Office (NRC)
DC			                    Division of Contracts (NRC)
D-NY	         	 	        Democrat, New York
DOE			                   U.S. Department of Energy
DOJ			                   U.S. Department of Justice
DU			                    depleted uranium
EPA			                   U.S. Environmental Protection Agency
FISMA			                 Federal Information Security Management Act
FY			                    Fiscal Year
HR			                    Office of Human Resources (NRC)
IAEA			                  International Atomic Energy Agency
IAM			                   Issue Area Monitor
IG			                    Inspector General
IT			                    information technology
ITAAC			                 inspections, tests, analyses, and acceptance criteria
Manual 			               NRC Enforcement Manual
MOU			                   Memorandum of Understanding
North Anna			            North Anna Nuclear Power Plant
NRC			                   U.S. Nuclear Regulatory Commission
NRR			                   Office of Nuclear Reactor Regulation (NRC)
OBRA-90	      	 	        The Omnibus Budget Reconciliation Act of 1990
OE			                    Office of Enforcement (NRC)
OGC			                   Office of the General Counsel (NRC)
OIG			                   Office of the Inspector General (NRC)
OIS			                   Office of Information Services (NRC)
OMB			                   Office of Management and Budget
OPM			                   U.S. Office of Personnel Management
PII			                   Personally Identifiable Information
PM			                    Project Manager
POA&M			                 Plan of Action and Milestones
Policy			                NRC Enforcement Policy
ROP			                   Reactor Oversight Process
SDP			                   Significance Determination Process
SEP			                   Source Evaluation Panel
SGI			                   safeguards information
UMTRCA			                Uranium Mill Tailings Radiation Control Act


50   NRC Office of the Inspector General Semiannual Report to Congress
Reporting Requirements
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports. This index cross-references those requirements to the applicable
pages where they are fulfilled in this report.


Citation	          Reporting Requirements	                                         Page

Section 4(a)(2)  	 Review of Legislation and Regulations	                            6-7

Section 5(a)(1)  	 Significant Problems, Abuses, and Deficiencies	         14-27, 36-41

Section 5(a)(2)  	 Recommendations for Corrective Action	                         14-27

Section 5(a)(3) 	 Prior Significant Recommendations Not Yet Completed	                49

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities	                        44

Section 5(a)(5) 	 Information or Assistance Refused	                              None

Section 5(a)(6) 	 Listing of Audit Reports	                                           45

Section 5(a)(7)  	 Summary of Significant Reports	                         14-27, 36-41

Section 5(a)(8) 	 Audit Reports — Questioned Costs	                                   47

Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use	                            48

Section 5(a)(10) 	 Audit Reports Issued Before Commencement of the 	              None
	                  Reporting Period for Which No Management Decision
	                  Has Been Made	

Section 5(a)(11) 	 Significant Revised Management Decisions	                      None

Section 5(a)(12) 	 Significant Management Decisions With Which	                   None
	                  the OIG Disagreed


Public Law 111-203, the Dodd-Frank Wall Street Reform and Consumer Protection
Act, requires IGs to include their peer review results as an appendix to each Semiannual
Report to Congress.


Section 989C	      Peer Review Information	                                           52




                                                                         October 1, 2011–March 31, 2012   51
Appendix
                     Peer Review Information
                     During this reporting period, NRC OIG conducted a Quality Assessment Review
                     (QAR) of the Investigative Operations of the U.S. Railroad Retirement Board Office
                     of Inspector General. Our review found that the Railroad Retirement Board Office
                     of Inspector General is in compliance with the QAR quality standards. The NRC
                     OIG did not identify any recommendations associated with any reportable findings
                     and there are no outstanding recommendations from any prior review.



                     Audits
                     The NRC OIG Audit Program was peer reviewed most recently by the U.S. Small
                     Business Administration Office of Inspector General. The peer review final report,
                     dated August 24, 2009, reflected that NRC OIG received a peer review rating of pass.
                     This is the highest rating possible based on the available options of pass, pass with
                     deficiencies, or fail.



                     Investigations
                     The NRC OIG Investigative Program was peer reviewed most recently by the
                     U.S. Department of State Office of Inspector General. The peer review final
                     report, dated July 6, 2010, reflected that NRC OIG is in compliance with the
                     quality standards established by the President’s Council on Integrity and Efficiency/
                     Executive Council on Integrity and Efficiency and the Attorney General guidelines.




52   NRC Office of the Inspector General Semiannual Report to Congress
OIG VISION                                                           OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover Photos:

Left: Pilgrim Nuclear Power Station
Photo courtesy of Entergy Nuclear

Top Right: Indian Point Nuclear Generating plant
Photo courtesy of Entergy Nuclear

Middle Right: Brunswick Steam Electric Plant
Photo courtesy of Progress Energy

Bottom Right: Fort Calhoun Station
Photo courtesy of Omaha Public Power District
The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:                                                                    Office of the Inspector General
• Contract and Procurement Irregularities
• Conflicts of Interest
                                             • Abuse of Authority
                                             • Misuse of Government Credit Card             Semiannual Report
                                                                                            to Congress
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement


Ways to Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message


                               Submit:
                               On-Line Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738                                     October 1, 2011–March 31, 2012

NUREG-1415, Vol. 25, No. 1
April 2012
